No. 20-

In the

Supreme Court of the United States
MARYSUSAN WARD,
Petitioner,
v.
LOUISVILLE METRO GOVERNMENT,
Respondent.
_____________
On Petition for Writ of Certiorari to the
Kentucky Court of Appeals
_____________
PETITION FOR WRIT OF CERTIORARI

_______________
ROBYN SMITH
LAW OFFICE OF
ROBYN SMITH
Counsel of Record
4350 Brownsboro Road
Suite 110
Louisville, KY 40207
(502) 893-4569
firm@robynsmithlaw.com

J. GREGORY TROUTMAN
TROUTMAN LAW
OFFICE, PLLC
4205 Springhurst Boulevard,
Suite 201
Louisville, KY 40241
(502) 412-9179
jgtatty@yahoo.com

i
QUESTIONS PRESENTED
This Court in Batson v. Kentucky, 476 U.S. 79
(1986) held that the Equal Protection Clause of the
Constitution’s Fourteenth Amendment prohibited
litigants in state court criminal trials from using
peremptory challenges to exclude jurors based
solely on race. However, in addressing how to
remediate a violation, this Court expressed:
“no view on whether it is more
appropriate in a particular case . . . for
the trial court to discharge the venire
and select a new jury from a panel not
previously associated with the case,
(citation omitted) or to disallow the
discriminatory challenges and resume
selection
with
the
improperly
challenged jurors reinstated on the
venire. (citations omitted).”
Id. at 99-100 n. 24. The questions presented are
thus:
(1) Whether the constitutional principles
underlying Batson require trial courts to craft a
meaningful remedy when a violation occurs in
order to dissuade the discriminatory use of
peremptory challenges such that a trial court may
insulate a discriminated juror from the random
drawdown requirements of a state procedural rule.
(2) Whether the Constitution’s Supremacy
Clause, U.S. CONST., art. VI, § 2, prevents a state
procedural rule from standing as an obstacle to the
constitutional mandate that a trial court craft a
meaningful Batson remedy.

ii
PARTIES TO THE PROCEEDING
Petitioner is MarySusan Ward. The Petitioner
was the Plaintiff-Appellee/Cross-Appellant below.
Respondent is the Louisville Metro
Government. The Respondent was the DefendantAppellant/Cross-Appellee below.
CORPORATE DISCLOSURE STATEMENT
Petitioner MarySusan Ward is an individual
and thus not a parent corporation or a publicly
held company owning 10% or more of another
corporation’s stock.
RELATED PROCEEDINGS
MarySusan Ward v. Louisville Metro Government,
No. 16-CI-000330, Jefferson Circuit Court,
Judgment entered on July 23, 2018.
Louisville Metro Government v. MarySusan Ward,
Nos. 2018-CA-001276-MR and 2018-CA-001330MR, Judgment entered on April 10, 2020 and
reported at 610 S.W.3d 295 (Ky. App. 2020).
MarySusan Ward v. Louisville Metro Government,
No. 2020-SC-0246, Review denied on October 21,
2020.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED……………….……….……i
PARTIES TO THE PROCEEDING…………………….ii
CORPORATE DISCLOSURE STATEMENT………...…ii
RELATED PROCEEDINGS………………………….…ii
TABLE OF AUTHORITIES………………………….…v
OPINIONS BELOW…………………………………….1
JURISDICTION………………………………………...1
CONSTITUTIONAL AND STATUTORY
PROVISIONS………………………………………...…1
INTRODUCTION…………………………………….…2
STATEMENT OF THE CASE………………….………4
REASONS FOR GRANTING THE PETITION…………8
A. A Batson violation commands the
crafting of a remedy sufficient to both
ameliorate such violation and deter
litigants from future violations…..………9
B. The Kentucky Court of Appeals
erred in allowing a state trial rule
to function as an obstacle to
enforcing Batson’s constitutional
mandate……………………………………12
1. Kentucky jury selection
procedures……………………….……13
2. The Kentucky Court of Appeals
based its ruling upon a false
premise……………………………..…15

iv
3. The Kentucky Court of Appeals’
holding erodes the constitutional gravity of a Batson
violation……………………….………17
4. The Kentucky Court of Appeals’
holding is at odds with the
results reached in other states…..…20
5. The Kentucky Court of Appeals’
holding cannot survive policy
scrutiny…………………………..……24
C. The academic and judicial criticisms
of Batson demonstrate the necessity
of the Court focusing on ensuring
that remedies have a deterrent effect
on litigants who might consider
the racially- motivated use of peremptory challenges………………………….…29
CONCLUSION……………………………………...…33
APPENDIX A. Order of Kentucky Supreme
Court Denying Review, October 21, 2020……..…1a
APPENDIX B. Opinion of the Kentucky Court
of Appeals, April 10, 2020……………………….…2a
APPENDIX C. Judgment of the Jefferson
Circuit Court, July 23, 2018…………………..…35a
APPENDIX D. KY. R. CIV. P. 47.02………….......37a

v
TABLE OF AUTHORITIES
CASES:
Allen v. Hardy,
478 U.S. 255 (1986)………………………………10
Ballard v. United States,
329 U.S. 187 (1946)………………………………10
Batson v. Kentucky,
476 U.S. 79 (1986)…………………….....…passim
Brown v. Board of Education,
347 U.S. 483 (1954)…………………….………...10
Caston v. Costello,
74 F.Supp.2d 262 (E.D.N.Y. 1999)………..……21
Commonwealth v. Doss,
510 S.W.3d 830 (Ky. 2016)………….…..15, 16, 17
Commonwealth v. Hill,
1999 PA Super. 48, 727 A.2d 578 (Pa.Super.Ct.),
appeal den., 747 A.2d 898, 747 A.2d 898
(1999)………………………………………………26
Commonwealth v. Stevens,
489 S.W.3d 755 (Ky. App. 2016)………..………15
Edmonson v. Leesville Concrete Co.,
500 U.S. 614 (1991)…………………………..…2, 9
Erie Railroad v. Tompkins,
304 U.S. 64 (1938)…………………………..…9, 10
Holmes v. State,
273 Ga. 644, 543 S.E.2d 688 (Ga. 2001)…..21, 22

vi
J.E.B. v. Alabama ex. rel. T.B.,
511 U.S. 127 (1994)……………………………9, 10
Jones v. State,
343 Md. 584, 683 A.2d 520 (Md. 1996)….…22, 23
Louisville Metro Government v. Ward,
610 S.W.3d 295 (Ky. App. 2020)………...…....1, 8
Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803)…………………..…9
Mapp v. Ohio,
367 U.S. 643 (1961)…………………………...….31
Massiah v. United States,
377 U.S. 201 (1964)………………………………31
Miller-El v. Dretke,
545 U.S. 231 (2005)………………………………30
Minniefield v. State,
539 N.E.2d 464 (Ind. 1989)…………………26, 27
Miranda v. Arizona,
384 U.S. 436 (1966)………………………………31
Peetz v. State,
180 S.W.3d 755 (Tex.Ct.App. 2005)……………18
People v. Frye,
191 A.D.2d 581, 595 N.Y.S.2d 84
(2d Dep’t 1993)……………………………………21
People v. Luciano,
860 N.Y.S.2d 452, 10 N.Y.3d 499
(N.Y. 2008)……………………………………26, 27

vii
People v. Moten,
159 Misc.2d 269, 603 N.Y.S.2d 940
(N.Y.Sup.1993)…………………………………...21
People v. Perez,
37 A.D.3d 152, 829 N.Y.S.2d 61
(App.Div. 2007)…………………………………...26
People v. Rivera,
307 Ill.App.3d 821, 719 N.E.2d 154
(Ill. App. 1999)……………………………………21
People v. Willis,
27 Cal.4th 811, 118 Cal.Rptr.2d 301, 43 P.3d
130 (Cal. 2002)……………………………………26
Powers v. Ohio,
499 U.S. 400 (1991)………………………………10
State v. Grim,
854 S.W.2d 403 (Mo. 1993)…………………...…23
Strauder v. West Virginia,
100 U.S. 303 (1880)……………………………8, 11
United States v. Walker,
490 F.3d 1282 (11th Cir. 2007)…………………26
CONSTITUTIONS, STATUTES AND RULES:
U.S. CONST, art. VI, sec. 2…………………………….…1
U.S. CONST, amend. XIII, sec. 1……………………...…9
U.S. CONST, amend. XIV, sec. 1…………………………2
U.S. CONST, amend. XXI, sec. 2…………………………9

KY. CONST, § 109……………………………………..4

viii
KY. CONST, § 112(5) …………………………………4
KY. REV. STAT. ANN. § 29A.280(1)……………..…13
KY. REV. STAT. ANN. § 29A.280(2)……………..…13
KY. REV. STAT. ANN. § 29A.280(3)…………………7
KY. REV. STAT. ANN. § 29A.290(2)……………..…14
KY. REV. STAT. CH. 344.040(1)(a)……………….…4
KY. REV. STAT. CH. 344.280(1)………………..…5, 6
KY. R. CIV. P. 47.02……………………………passim
KY. R. CIV. P. 47.03(1)……………………………...14
KY. R. CRIM. P. 9.32………………………………...14
MD. RULES §2-512…………………………………..22
MO. REV. STAT. § 495.485………………….………23
OTHER RESOURCES:
Administrative Procedures for the Kentucky
Court of Justice, Part II, § 2…………….………13
Administrative Procedures for the Kentucky
Court of Justice, Part II, § 10……………………13
Alafair S. Burke, Prosecutors and Peremptories, 97 Iowa L. Rev. 1467 (2012)……………29
Camille A. Nelson, Batson, O.J., and Snyder:
Lessons from an Intersecting Trilogy,
93 Iowa L. Rev. 1687 (2008)……………………30

ix
Charles J. Ogletree, Just Say No!: A Proposal
to Eliminate Racially Discriminatory Uses of
Peremptory Challenges, 31 Am. Crim. L. Rev.
1099 (1994)………………………………….........30
Jonathan Abel, Batson’s Appellate Appeal and
Trial Tribulations, Columbia Law Review, Vol.
118, No. 3, 713 (May 1, 2018)……………...30, 31
Joshua Revesz, Comment, Ideological Imbalance and the Peremptory Challenge, 125 Yale
L.J. 2535 (2016)………………………………….30
Judging the Prosecution: Why Abolishing
Peremptory Challenges Limits the Dangers of
Prosecutorial Discretion, 119 Harv. L. Rev.
2121 (2006)………………………………………..30
Kenneth J. Melilli, Batson in Practice: What
We Have Learned About Batson and Peremptory Challenges, 71 Notre Dame L. Rev. 447
(1996)………………………………………………30
Leonard L. Cavise, The Batson Doctrine: The
Supreme Court’s Utter Failure to Meet the
Challenge of Discrimination in Jury Selection, 1999 Wis. L. Rev. 501………………….29, 30
Theodore McMillian & Christopher J. Petrini, Batson v. Kentucky: A Promise Unfulfilled, 58 UMKC L. Rev. 361 (1990)…………..…30
William T. Pizzi, Batson v. Kentucky: Curing
the Disease but Killing the Patient, 1987 Sup.
Ct. Rev. 97)……………………………………..…30

x
Wilson, Batson v. Kentucky: Can the ‘New’
Peremptory Challenge Survive the Resurrection of Strauder v. West Virginia?, 20
Akron L.Rev. 355 (1986)……………………..…24
Ulysses Gene Thibodeaux, The Changing Face
of Jury Selection: Batson and Its Practical
Implications, 56 La. B.J. 408 (2009)………….30

1
PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW
This petition seeks review of the opinion of the
Kentucky Court of Appeals in Louisville Metro
Government v. Ward (App. 2a – 34a, infra),
reported at 610 S.W.3d 295 (Ky. App. 2020). The
judgment of the Circuit Court of Jefferson County,
Kentucky (App. 35a – 36a, infra), is not reported.
The order of the Kentucky Supreme Court which
denied discretionary review of the Court of
Appeals opinion (App. 1a, infra), is likewise not
reported.
JURISDICTION
The opinion of the Kentucky Court of Appeals
was entered on April 10, 2020. (App. 2a – 34a,
infra). A petition for discretionary review in the
Kentucky Supreme Court was denied on October
21, 2020 (App. 1a, infra). This Court has
jurisdiction under 28 U.S.C. § 1257(a) to hear this
case by writ of certiorari. This petition is timely
filed, as it is filed within 150 days from the date of
the Kentucky Supreme Court’s order denying
discretionary review. Order, 589 U.S. ___ (Mar. 19,
2020).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
A. The Supremacy Clause, U.S. Const., Art.VI,
Para. 2: This Constitution, and the laws of the
United States which shall be made in pursuance
thereof; and all treaties made, or which shall be
made, under the authority of the United States,

2
shall be the supreme law of the land; and the
judges in every state shall be bound thereby,
anything in the Constitution or laws of any State
to the contrary notwithstanding.
B. The Equal Protection Clause, U.S. Const.
Amend. XIV, § 1: No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws. (Emphasis added).
C. Kentucky Rule of Civil Procedure 47.02:
Relevant sections of the Rule are reprinted in the
appendix. (App. 37a – 38a, infra).
INTRODUCTION
This case requires the Court to revisit Batson v.
Kentucky, 476 U.S. 79 (1986) and Edmonson v.
Leesville Concrete Co., 500 U.S. 614 (1991). At
issue is whether the Constitution’s Supremacy
Clause (U.S. CONST., art VI, para. 2) and the
Fourteenth Amendment’s Equal Protection Clause
(U.S. CONST., amend. XIV, sec. 1) permit a state
court procedural rule to impede a trial court from
crafting a meaningful remedy to a Batson violation
in order to deter litigants from prohibited
discriminatory uses of peremptory challenges.
This case began as a garden-variety state law
employment racial discrimination action in a
Kentucky state trial court. This case took on
federal constitutional significance because the
defending governmental entity, a metropolitan

3
city’s health department, utilized one of its
peremptory challenges in an attempt to
impermissibly exclude an African-American venire
member. Succinctly stated, the governmental
entity’s counsel practiced racial discrimination
while defending a racial discrimination case.1
The trial judge found a Batson violation and
fashioned a remedy which mandated that the
wrongfully- discriminated venire member would
participate as one of the twelve jurors who
rendered the verdict. The trial judge fashioned this
remedy without regard to the Kentucky civil trial
rule which requires a random draw-down to
eliminate alternate jurors. The trial judge
reasoned that subjecting the wrongfully- stricken
venire member to the draw-down procedure would
defeat the purpose of Batson.
The Kentucky Court of Appeals held the trial
judge abused his discretion in fashioning such
Batson remedy. The Court held that compliance
with the aforementioned procedural rule is
mandatory with respect to subjecting all venire
1
Metro Government’s Health Department being
accused of racial discrimination is a shocking irony given
that Louisville’s Mayor recently declared racism to be a
“public health crisis”. The fact Louisville’s Mayor believes
some of the city’s “systems are more than broken” and need
to “be dismantled and replaced” shows a definite need to
look inward. The very Metro Government agency charged
with promoting public health in Louisville is itself alleged
to have engaged in racial discrimination — thus
contributing to the very public health crisis it is supposed
to solve. See https://louisvilleky.gov/news/mayor-outlinesdetailed-plan-advancing-racial-equity-black-residents.
(accessed March 5, 2021).

4
members to the potential of random elimination in
winnowing out the alternate jurors. As a result,
the Court of Appeals reversed a $880,000 verdict
rendered by the jury which included the
wrongfully- discriminated venire member.
STATEMENT OF THE CASE
Petitioner MarySusan Ward (Ward) is an
African-American female who was formerly
employed by the Respondent Louisville Metro
Government’s Department of Public Health and
Wellness (Metro Government). For approximately
eight years, Metro Government employed Ward as
an Administrative Assistant.
On January 21, 2016, Ward filed suit against
Metro Government in the Circuit Court of
Jefferson County, Kentucky, a trial court of
general jurisdiction. See KY. CONST, §§ 109,
112(5). Ward’s Complaint alleged state law civil
rights claims for: (1) violation of her due process
rights relating to Metro Government’s handling of
a purported resignation; (2) race discrimination in
violation of KY. REV. STAT. ANN. § 344.040(1)(a);2
2

KY. REV. STAT. ANN. § 344.040(1)(a) provides:
It is an unlawful practice for an employer:
(a) To fail or refuse to hire, or to discharge any
individual, or otherwise to discriminate against
an individual with respect to compensation,
terms, conditions, or privileges of employment,
because of the individual's race, color, religion,
national origin, sex, age forty (40) and over,
because the person is a qualified individual
with a disability, or because the individual is a
smoker or nonsmoker, as long as the person
complies with any workplace policy concerning
smoking.

5
and (3) retaliation in violation of KY. REV. STAT.
ANN. § 344.280(1).3
Ward’s claims proceeded to a jury trial on July
18, 2018. Following voir dire, the trial court made
any necessary strikes for cause and further
reduced the venire panel based upon a random
draw. This left a sufficient number of venire
members to seat twelve jurors and two alternates
after the parties each exercised their respective
four peremptory strikes.
In exercising one of its peremptory strikes,
Metro Government chose to eliminate Juror 4879,
an African-American male. Ward timely asserted
a Batson challenge. The trial court and the parties
engaged in the colloquy regarding the tripartite
Batson analysis. The trial court found that Ward
made a prima facie showing of a Batson violation.
In response, Metro Government articulated that
Juror 4879’s status as a union member was the
alleged non-discriminatory reason for striking him
based upon the presumption that union members
are not favorable for employers. Yet, Metro
3

KY. REV. STAT. ANN. § 344.280(1) provides:
It shall be an unlawful practice for a person, or
for two (2) or more persons to conspire:
(1) To retaliate or discriminate in any manner
against a person because he has opposed a
practice declared unlawful by this chapter, or
because he has made a charge, filed a complaint,
testified, assisted, or participated in any
manner in any investigation, proceeding, or
hearing under this chapter.
* * *

6
Government did not exercise any of its other three
peremptory challenges against the several white
venire members who also had a union affiliation.
(App. 13a – 14a, infra).
The trial court determined that Metro
Government’s peremptory challenge against Juror
4878 was racially- motivated. The trial court
articulated its Batson remedy by ordering that
Juror 4879 would be seated on the jury but not
subjected to the random draw-down of alternates
required by KY. R. CIV. P. 47.02 when determining
which twelve jurors would deliberate a verdict.4
The trial court reasoned that “it would defeat the
purpose for which Batson motions are made by
eliminating a juror who was placed back” if that
juror could later be randomly eliminated after a
finding that Metro Government had engaged in
intentional discrimination (emphasis added).
(App. 15a, infra).
At the conclusion of proof, the trial court
granted Metro Government a directed verdict on
Ward’s due process claim regarding the handling
of her resignation. On the remaining claims,
however, the twelve jurors returned a unanimous
verdict against Metro Government which found
that Ward had suffered retaliation in violation of
KY. REV. STAT. ANN. § 344.280(1) and awarded
her $30,000.00 of lost wages. The jury also

The trial court further added an additional alternate
juror and merely advised the venire panel that it would be
comprised of twelve jurors and three alternates, with the
alternates to be determined at the time of submission.
4

7
returned a 9-3 verdict5 which rejected Ward’s
racial discrimination claim but awarded her the
sum of $850,000.00 for mental and emotional
distress on her retaliation claim.6 The trial court
entered a judgment upon the jury’s verdict on July
23, 2018. (App. 35a – 36a, infra).
Louisville Metro timely filed an appeal of the
trial court’s judgment to the Kentucky Court of
Appeals, and Ward timely filed a cross-appeal with
respect to the trial court’s adverse ruling on an
evidentiary issue.7
The Kentucky Court of Appeals issued an
opinion on April 10, 2020 which affirmed in part
and vacated in part the trial court’s judgment. In
particular, the Court held the trial court did not
err in finding that Metro Government committed
a Batson violation with respect to Juror 4879. The
Court of Appeals, however, held the trial court
erred in crafting its Batson remedy when
insulating Juror 4879 from the random selection
procedure set forth in KY. R. CIV. P. 47.02. The
Court found that subjecting Juror 4879 to the
random selection procedure was mandatory. The
KY. REV. STAT. ANN. § 29A.280(3) requires the
agreement of at least three-fourths (3/4) of the jurors in all
Kentucky circuit court civil jury trials.
5

Louisville Metro did not poll the jury following the
return of its verdict.
6

In her Brief to the Kentucky Court of Appeals, Ward
asserted that KY. R. CIV. P. 47.02 was unconstitutionally
restrictive in that it impinged upon the wide latitude which
this Court granted to trial courts when fashioning a Batson
remedy.
7

8
Court accordingly vacated the jury’s verdict and
remanded the case for a new trial. Louisville Metro
Government v. Ward, 610 S.W.3d 295 (Ky. App.
2020). (App. 2a – 34a, infra).
The Kentucky Supreme Court denied Ward’s
petition for discretionary review8 of the Court of
Appeals opinion by order entered on October 21,
2020. App. 1a, infra).
REASONS FOR GRANTING THE PETITION
This case shows that Batson has come full
circle. Both Batson and this case originated from
the same Kentucky circuit court, albeit at different
ends of the spectrum. The Court should grant this
petition for a writ of certiorari and reverse the
opinion of the Kentucky Court of Appeals with
respect to the propriety of the trial court’s Batson
remedy.
Dating back as far as Strauder v. West Virginia,
100 U.S. 303 (1880), this Court has consistently
sought to eradicate racial discrimination in the
jury selection process. In Batson, this Court
rightfully expressed its intention to continue a
Ward presented the following question of law to the
Kentucky Supreme Court in her Petition for discretionary
review:
8

Batson and its progeny seek to “eradicate
racial discrimination in the procedures used
to select the venire from which individual
jurors are drawn.” Batson, 476 U.S. at 84.
The Batson court provided broad latitude to
trial courts to secure compliance with the
Equal Protection Clause. Does KY. R. CIV.
P. 47.02 limit this latitude?

9
policy of rooting out a systemic history of
discrimination in the jury selection process in
criminal prosecutions. The Court subsequently
extended the prohibition against the use of
racially-motivated peremptory challenges to civil
cases in Edmonson, supra. in furtherance of that
policy. The Court has subsequently expanded the
prohibition to bar the use of gender-based
peremptory challenges. See J.E.B. v. Alabama ex.
rel. T.B., 511 U.S. 127 (1994).
A Batson violation is a constitutional violation9
and thus cannot be allowed to stand without the
imposition of a meaningful remedy. In this
instance, the Kentucky Court of Appeals’ rigid
fixation with adhering to the random alternate
juror draw-down requirements of KY. R. CIV. P.
47.02 stands as an impediment to Batson’s clear
constitutional mandate and must yield.
A. A Batson violation commands the
crafting of a remedy sufficient to both
ameliorate such violation and deter
litigants from future violations.
It can be reasonably argued that Batson, supra,
is now so firmly engrained into our jurisprudence
that it represents super-precedent on par with
cases such as Marbury v. Madison, 5 U.S. (1
Cranch) 137 (1803), Erie Railroad v. Tompkins,
A Batson violation is only one of three ways in which a
private party can violate the United States Constitution.
The other two are enslaving another human in violation of
the Thirteenth Amendment (U.S. CONST., amend. XIII, sec.
1) and bringing alcoholic beverages into a state in violation
of its beverage control laws in violation of the Twenty-First
Amendment (U.S. CONST., amend. XXI, sec. 2).
9

10
304 U.S. 64 (1938) and Brown v. Board of
Education, 347 U.S. 483 (1954).
The notion that it is acceptable to strike a
venire member based upon race is so anathema to
modern thinking that one can hardly comprehend
that such practice was once considered acceptable.
It is inconceivable that this Court, or any court,
would ever consider retreating from the
foundational constitutional proposition upon
which Batson rests. Viewed through such prism, a
Batson remedy must be sufficient in depth and
breadth to both ameliorate the effects of a violation
and deter the improper use of peremptory
challenges.
This Court’s holding in Batson is premised
upon the basic principle that jury selection
procedures which purposefully exclude AfricanAmericans from service undermine the public
confidence in the fairness of our system of justice.
476 U.S. at 87, citing Ballard v. United States, 329
U.S. 187, 195 (1946). Potential jurors and litigants
thus have a recognized equal protection right to
jury selection procedures which are free from
state- sponsored group stereotypes rooted in, and
reflective of, historical prejudice. J.E.B., supra.,
511 U.S. at 128.
It is clear this Court intended that Batson was
designed to “serve multiple ends.” Powers v. Ohio,
499 U.S. 400, 406 (1991). See also Allen v. Hardy,
478 U.S. 255, 259 (1986). From a broad
perspective, this Court intended that Batson
would remedy the multiple harms which result
from the unconstitutional exercise of peremptory

11
challenges vis-à-vis the entire community. 476
U.S. at 86-87.
This Court also intended that Batson serve a
two-fold granular purpose: protecting both
litigants and jurors. In protecting litigants, Batson
recognizes the:
“[p]urposeful
discrimination
in
selection of the venire violates a
[litigant’s] right to equal protection
because it denies him the protection
that a trial by jury is intended to
secure.”
476 U.S. at 86. In protecting jurors eliminated
because of race, Batson concludes that:
“by denying a person participation in
jury service on account of his race,
the [party exercising the strike]
unconstitutionally
discriminate[s]
against the excluded juror.”
Id. at 87 (citing Strauder, supra. at 308).
Given the scope and tenor of this Court’s
holding in Batson, the ultimate issue becomes
what consequences must result when a trial court
finds a violation. This Court declined in Batson to
specifically “formulate particular procedures to be
followed” in crafting a remedy. 476 U.S. at 99. This
Court, however, did articulate two acceptable
remedies: (1) discharging the entire venire and
selecting a new jury from a panel not previously
associated with the case or (2) disallowing the
discriminatory challenges and resume selection
with the improperly- challenged juror reinstated
on the venire. Id. at 99-100 n. 24.

12
In the latter event, the Court implied the
restoration option contemplated the wrongfully
excluded jurors will be “reinstated on the venire.”
476 U.S. at 99, n. 24. The Court, however, did not
address the issue on the granular level of whether
reinstating the wrongfully excluded juror would,
or could, include insulating such juror from a later
random draw-down procedure when eliminating
any alternate jurors.
The time is ripe for the Court to review Batson
as numerous commentators have criticized it for
failing to achieve the desired goals. See Section C,
infra. The Court did not intend that Batson be a
“toothless tiger” regarding the fashioning of
remedies. This is obvious from the Court’s
statement in Batson that its holding “enforce[d]
the mandate of equal protection further[ing] the
ends of justice.” 476 U.S. at 99. While the Court
left crafting specific remedies to the discretion of
trial courts, it implicitly did not intend to permit a
rigid adherence to a state trial procedure to pose
an obstacle to Batson’s constitutional mandate
when crafting a remedy. The Court is asked in this
case to address the subject issue in order to ensure
the constitutional policies it announced in Batson
are followed.
B. The Kentucky Court of Appeals erred
in allowing a state trial rule to
function as an obstacle to enforcing
Batson’s constitutional mandate.
In this instance, the Kentucky Court of Appeals
ignored both the United States Constitution’s
Supremacy
Clause
and
the
Fourteenth
Amendment’s Equal Protection Clause by placing

13
its fixation with the rigid adherence to Kentucky’s
jury selection procedural rule above this Court’s
clear constitutional mandate embodied in Batson.
This state trial rule, KY. R. CIV. P. 47.02, is a clear
and direct impediment to giving Batson its full
effect in the circumstances presented in this case.
What happened here is undoubtedly not an
isolated incident. It is likely an issue confronted
every day in trial courts across the nation. The
Court should therefore accept certiorari to address
such issue given its high probability of recurrence
in future cases.
1. Kentucky jury selection
procedures.
Kentucky circuit court petit juries in both civil
and criminal cases are generally comprised of
twelve jurors.10 KY. REV. STAT. ANN. § 29A.280(1).
The members of these petit juries are selected
during voir dire from a larger venire panel. These
venire panels are in turn randomly drawn from the
citizens of each particular judicial circuit.11
Administrative Procedures for the Kentucky Court
of Justice, Part II, §§ 2, 10. In this instance, the
venire panel at issue was drawn randomly from
among the eligible citizens residing in LouisvilleJefferson County in accordance with the
KY. REV. STAT. ANN. § 29A.280(2) permits litigants in
circuit court trials, with court approval, to reduce the
required number of jurors to any number less than twelve
but not less than six.
10

In Kentucky, a judicial circuit may be comprised of
several counties, as is often the case in rural areas of the
state, or a single county as is the case with LouisvilleJefferson County.
11

14
Administrative Procedures for the Kentucky Court
of Justice.12
Once a trial commences in Kentucky’s state
courts, the specific venire panel drawn for a
particular case is reduced by the litigants’
respective challenges for cause during or following
voir dire. KY. REV. STAT. ANN. § 29A.290(2). The
litigants then exercise their respective peremptory
challenges to determine the specific jury panel. Id.
In Kentucky civil cases, each opposing party is
granted three peremptory challenges. KY. R. CIV.
P. 47.03(1).
The Kentucky trial procedures also permit the
seating of alternate jurors. Compare KY. R. CIV. P.
47.02 and KY. R. CRIM. P. 9.32. In Kentucky civil
cases, the determination of which particular
twelve jurors will deliberate a verdict is not made
until the end of the trial. KY. R. CIV. P. 47.02
governs such determination and commands in
pertinent part that:
“If the membership of the jury
exceeds the number required by law,
immediately before the jury retires to
consider its verdict the clerk, in open
court, shall place in a box the cards
bearing numbers identifying the
jurors empaneled to hear the case
and, after thoroughly mixing them,
withdraw from the box at random a
The Louisville-Jefferson County venire panel in this
instance was randomly drawn from the county’s residents
who had: (1) drivers licenses showing a Jefferson County
address; (2) filed a Kentucky resident income tax return
showing a Jefferson County address; and/or (3) registered
to vote in Jefferson County.
12

15
sufficient number of cards (one or
two, as the case may be) to reduce the
jury to the number required by law,
whereupon the jurors so selected for
elimination shall be excused.”
(See App. 37a, infra). In this instance, the Court of
Appeals held the trial court abused its discretion
by insulating Juror 4879 from this draw-down
process when fashioning a Batson remedy. (See
App. 31a – 32a, infra).
2. The Kentucky Court of Appeals
based its ruling upon a false
premise.
The Kentucky Court of Appeals predicated its
holding upon the Kentucky Supreme Court’s
opinion in Commonwealth v. Doss, 510 S.W.3d 830
(Ky. 2016). Doss held that the right to a completely
impartial jury does not entitle parties to a jury of
any particular composition. Id. at 835. In applying
this proposition, the Court of Appeals thus held
that the first day of service in which jurors
assemble in the jury pool is the only point at which
parties are entitled to a fair cross-section of the
community.
(App.
27a,
infra,
citing
Commonwealth v. Stevens, 489 S.W.3d 755, 763
(Ky. App. 2016)). The Court of Appeals recognized
that Batson allows trial courts wide latitude in
remedying a violation but reasoned that a trial
court must also always strive to maintain
impartiality among the jury. (App. 29a, infra).
The Court of Appeals’ reliance upon Doss is
misplaced and missed the point of Batson. In Doss,
the same trial judge which presided over this case
discharged a jury panel initially selected to decide

16
a criminal case against an African-American
defendant because of its lack of racial diversity (1
of 41 venire members were African-American).13
The trial court then proceeded with the trial only
after empaneling a second, more racially- diverse,
venire panel.14 The Kentucky Supreme Court was
highly critical of the trial court’s action because it
was not based upon statistical or demographic
evidence which supported the proposition that the
initial venire panel was the result of anything
other than a random occurrence.
Doss, however, did not involve the act of a trial
judge either finding or remedying a Batson
violation. Ward wholeheartedly agrees with the
principal that litigants are only entitled to a venire
panel drawn from a cross- section of the
community as of the first day of jury service. Doss,
however, neither considered nor addressed any of
the elements of Batson. Not surprisingly, Doss also
neither considered nor addressed the fact that
Batson was intended to readjust this calculus
when it becomes necessary to remedy intentional
discrimination which occurs during the jury
selection process. This Court specifically said in
Batson that trial courts can reinstate a wrongfullystricken juror. Doss, therefore, cannot be read to
contradict that proposition. The Court of Appeals’
The United States Census Bureau estimates the
African-American population of Louisville-Jefferson
County, Kentucky is 23.5%.
See https://www.census.gov/quickfacts/louisvillejefferson
countybalancekentucky. (Accessed March 5, 2021).
13

The second, more racially- diverse jury, acquitted the
defendant in Doss.
14

17
reliance upon Doss was erroneous because it
compared apples to oranges as the two cases
involve completely different sets of analysis,
inquiries and remedies.
3. The Kentucky Court of Appeals’
holding erodes the constitutional gravity of a Batson violation.
In this instance, the Kentucky Court of
Appeals’ rigid insistence on adhering to procedure
severely erodes the constitutional gravity of a
Batson violation. It cannot be forgotten that a
litigant violates the United States Constitution
when committing a Batson violation.
Here, the tenor of the Court of Appeals’ opinion
essentially incentivizes the deployment of raciallymotivated peremptory challenges instead of
standing firm against such practice. As this case
evidences, subjecting Juror 4879 to the random
draw-down procedure mandated by KY. R. CIV. P.
47.02 would completely erode the constitutional
gravity of Metro Government’s Batson violation
and, as argued infra., eliminate any deterrence
against future violations.
The Court of Appeals emphasized its belief that
a trial court “must always strive to maintain
impartiality among the jury” when fashioning a
Batson remedy. (App. 29, infra). Ward agrees, but
that sword cuts both ways. In this instance, Metro
Government sought to empanel a jury which it
believed would be anything but impartial when
choosing to strike Juror 4879. Metro Government
crystalized this point by scrambling to gin up
additional non- discriminatory grounds after the

18
trial court found a Batson violation. (See App. 14a
– 15a, infra).
Fifteen jurors heard the evidence in this case.
The mandatory draw-down of three jurors
required by KY. R. CIV. P. 47.02 meant a 6.7
percent probability that any particular juror would
be eliminated on the first draw, a 7.14 percent
probability of elimination on the second draw and
a 7.7 percent probability of elimination on the
third draw. Metro Government thus sought to
adjust those odds to a 100% probability of
elimination when choosing to exercise a raciallymotivated peremptory challenge against Juror
4879. All the trial court did in this instance was
simply negate Metro Government’s attempt to rig
the odds by readjusting Juror 4879’s elimination
risk to 0%.
A litigant in Metro Government’s position who
violates Batson “must cope with losing his racebased gamble.” Peetz v. State, 180 S.W.3d 755, 761
(Tex. Ct. App. 2005). It was thus error for the
Court of Appeals to relieve Metro Government of
the risk and burden of its race- based gamble. Just
as Las Vegas casinos do not allow players to get a
re-do when they make ill-advised bets and then
predictably lose, the Court of Appeals should have
not allowed Metro Government to essentially do
the same in this instance.
The Court of Appeals’ holding sends a clear and
resounding message to both litigants and their
counsel — the employment of racially- motivated
peremptory challenges allow parties to deploy a
racially- motivated peremptory challenge and thus

19
obtain the desired result sought by the improper
conduct if the juror targeted by such challenge is
eliminated during the random drawdown process.
In football terms, this is analogous to a team
having the ball on its own 1-yard line and
committing a grievous penalty but only being
penalized half the distance to the goal. The Court
of Appeals validated this analogy at footnote 7 of
its opinion through the statement that Metro
Government forfeiting its peremptory challenge
and Juror 4879 being placed back onto the jury
panel was “in and of itself, a method of penalizing
an impermissible use of peremptory challenges.”
App., infra, at 30a. Such statement stands in stark
contrast to what the Court of Appeals said in the
prior paragraph of its opinion that ensuring Juror
4879 a seat on the jury would have been
appropriate had there been no alternate jurors. Id.
The fact that parties choose to seat alternate
jurors should not change the scope of a trial court’s
available Batson remedies.
Nothing in this Court’s Batson opinion suggests
that a trial court simply re-seating a wrongfullystricken juror subject to a subsequent draw-down
was the outer limits of its authority. Blind
adherence to a procedural rule in the face of a clear
constitutional violation cannot be countenanced
and cannot be accepted as the norm in the jury
selection process.
The erosion of a Batson violation’s gravity is
further amplified by two circumstances apparent
in this case: the violation it occurred at the hands
of a government entity litigant, and it occurred

20
during the defense of a race discrimination case. A
trial court need not consider Batson issues in a
vacuum. A trial court thus certainly acts within its
discretion when considering the salient factors and
circumstances of a particular Batson violation
when discerning how to fashion an appropriate
remedy.
Dare say this is not the only occasion in which
Metro Government has either been sued and faced
a jury. Dare say Metro Government will be sued
again in the future. Metro Louisville has a 23.5%
African-American population. Regrettably, the
Court of Appeals’ holding gives litigants like Metro
Government carte blanche to ignore Batson in
future cases, discriminate against nearly a quarter
of Louisville’s population when selecting juries,
and render trial courts essentially powerless to
craft a meaningful remedy.15 This result is surely
not what this Court intended in Batson.
4. The Kentucky Court of Appeals’
holding is at odds with the
results reached in other states.
The holding of the Kentucky Court of Appeals
is constitutionally- incongruent when compared to
the manner in which other state courts have
addressed the subject issue. Kentucky’s insistence
on a rigid adherence to KY. R. CIV. P. 47.02 stands
A denial of certiorari will result in a retrial of Ward’s
discrimination claims against Metro Government. Yet, the
holding of the Court of Appeals will allow Metro
Government to again engage in the same type of
discriminatory uses of its peremptory challenges and
emasculate the trial court from remedying such a violation
of Batson.
15

21
in stark contrast. For instance, New York’s courts
have countenanced the actual removal of a seated
juror to guarantee the placement of a venire
member who was wrongfully subjected to a
racially- motivated peremptory challenge. People
v. Frye, 191 A.D.2d 581, 581-82, 595 N.Y.S.2d 84,
84-85 (2d Dep’t 1993). The policy of allowing this
displacement is intended to effectuate the
purposes of Batson which could:
“require removing from the panel
jurors who had been selected before
the Batson-Kern challenge was
sustained. While one might consider
this to be unfair, it would
nevertheless be consistent with the
underlying principle embodied by
both Batson . . ., to prevent
discrimination in the selection of a
jury....”
People v. Moten, 159 Misc.2d 269, 281, 603
N.Y.S.2d 940, 947 (N.Y.Sup.1993). Importantly,
Moten recognized that not seating a wrongfullystricken juror would reward the very conduct
which Batson was intended to prevent. Id. The
courts in both Caston v. Costello, 74 F.Supp.2d 262
(E.D.N.Y. 1999) and People v. Rivera, 307
Ill.App.3d 821, 719 N.E.2d 154 (Ill. App. 1999)
recognized these principles.
Courts in Georgia have reached a similar
result. In Holmes v. State, 273 Ga. 644, 543 S.E.2d
688 (Ga. 2001), the Georgia Supreme Court
addressed a reverse Batson situation (defense
counsel’s racially- motivated use of a peremptory
challenge). The trial court in Holmes “reinstated
the juror and made an alternate of the previously

22
chosen twelfth juror.” Id. at 690. The Georgia court
justified this remedy on the basis that “the trial
court had the constitutional power to seat an
individual juror determined to have been
challenged in violation of Batson.” Id.
In Jones v. State, 343 Md. 584, 683 A.2d 520,
529 (Md. 1996), the Maryland Supreme Court
addressed another reverse Batson case involving a
defense’s multiple racially- motivated peremptory
challenges. The Maryland trial court did not
adjudicate the Batson violations until after the
jurors and alternates had been seated. As a
remedy, the trial court reconfigured the jury panel
by seating each of the five impermissibly stricken
jurors.16 The Maryland Supreme Court recognized
that a Batson violation implicates the rights of
both the affected party and juror(s) and thus any
remedy must “take account of and, to the extent
possible, vindicate each.” 683 A.2d at 525. The
court focused on the importance of the remedy
balancing the rights of potential jurors not to be
excluded from jury service by unconstitutional
means against the potential prejudice to the
litigants. Id. at 528. Jones makes no mention of
considering the adherence to state procedural
rules as a factor to be considered.
Ultimately, Jones concluded that the need to
consider conflicting constitutional rights of the
parties and the excluded juror militates in favor of
permitting trial courts the latitude to tailor a
The jury selection procedure followed in Maryland
appears to specifically identify which venire members are
designated as jurors and alternatives. MD. RULES §2-512.
16

23
remedy so as to protect the rights of all the parties
concerned. 683 A.2d at 529. As such, a Batson
colloquy which occurs outside the presence of the
jurors, including the excluded juror, reduces the
likelihood of prejudice to the litigants.17 Id. Under
the circumstances, the Maryland Supreme Court
held the trial court did not abuse its discretion in
seating the improperly excluded jurors.
Finally, the Missouri Supreme Court reached a
similar result in State v. Grim, 854 S.W.2d 403
(Mo. 1993). In Grim, the court addressed the
proper remedy to cure a Batson violation in
holding that the proper remedy for discriminatory
use of peremptory strikes is to:
“quash the strikes and permit those
members of the venire stricken for
discriminatory reasons to sit on the
jury if they otherwise would.”
854 S.W.2d at 416. Grim is relevant here because
it resulted in the improperly- stricken venire
member being given a guaranteed position on the
jury. The result in Grim is not meaningfully
different than the remedy fashioned by the trial
court in this case.18
The Batson colloquy in this case, like the one in Jones,
supra, occurred outside the presence of the jury, including
any improperly- stricken juror.
17

Unlike Kentucky’s jury selection procedure, alternate
jurors in Missouri are selected, seated, and specifically
identified distinctly from the regular jurors. MO. REV. STAT.
§ 495.485. Thus, the placement of a wrongfully- stricken
venire member on a Missouri jury is functionally no
different than exempting a wrongfully- stricken juror from
an alternative juror random draw-down procedure.
18

24
What the Kentucky Court of Appeals failed to
appreciate in this instance is that sometimes
simply placing a wrongfully excluded juror back in
the place he or she would have occupied absent a
wrongful exclusion does not truly vindicate a
Batson violation. Certainly, vindicating such a
violation must be a trial court’s first consideration
when fashioning a remedy. But what about
deterring litigants and their counsel from violating
Batson in the future? Commentators recognize
that “Batson’s force, if any, will lie in the deterrent
effect it will have upon prosecutors.” Wilson,
Batson v. Kentucky: Can the ‘New’ Peremptory
Challenge Survive the Resurrection of Strauder v.
West Virginia?, 20 Akron L.Rev. 355, 364 (1986).
The trial court here fashioned a remedy which
it calculated would give teeth to Batson. The trial
court recognized that “it would defeat the purpose
for which Batson motions are made by eliminating
a juror who was placed back” if Juror 4879 could
later be randomly eliminated after a finding of
intentional discrimination. (App. 14a – 15a, infra).
The trial court’s expressed purpose and its remedy
fulfilled Batson’s constitutional mandate. Such
purpose and remedy were in line with that
employed in other states which have given Batson
due credence.
5. The Kentucky Court of Appeals’
holding cannot survive policy
scrutiny.
Among the things for which 2020 will forever be
remembered, issues of race were thrust into the
national consciousness in a way not seen since the
1960’s. Many segments of American society believe

25
the law enforcement and judicial institutions are
laden with systemic racism. Many Americans thus
have little, or no, confidence in the fairness and
integrity of either institution. Yet, the existence of
systemic racism in the jury selection process was
something Batson was supposed to remedy - - 35
years ago.
Commentators and pundits will long debate the
veracity of the aforementioned public perceptions.
For many of our fellow citizens, those perceptions
are reality. It is easy to comprehend this lack of
confidence when viewing the issue from the
perspective of an African-American litigant or
prospective juror. The Court of Appeals tacitly
sent the message that members of the
Commonwealth’s African-American community
enter the judicial system at their own peril and
that their participation in jury service is not
desired. When viewed through the prism of today’s
racial consciousness, the Court of Appeals’ holding
simply cannot survive the most basic level of policy
scrutiny.
This Court noted in Batson that the raciallymotivated uses of peremptory challenges both
touch the entire community and undermine public
confidence in the fairness of our system of justice.
476 U.S. at 87. It is, and should be, troubling that
a large segment of our population does not believe
the judicial system treats them fairly from stem to
stern. The overarching policy of the judiciary
should be to ensure the existence of public
confidence in the institution. Doing so in the
present environment requires this Court to
resoundingly proclaim that trial courts must be

26
accorded the flexibility and discretion to fashion
remedies which serve a strong dissuasive purpose.
This must be true even if such remedies step on
some toes or disregard sacred cows. The trial court
understood this fact and appropriately fashioned a
Batson remedy.
Ensuring the deterrent effect of a Batson
remedy is something numerous state courts have
recognized and upheld by employing varied
solutions. See e.g. People v. Luciano, 860 N.Y.S.2d
452, 10 N.Y.3d 499, 505 (N.Y. 2008) [Forfeiture of
peremptory challenges to further the deterrence of
discriminatory conduct]; United States v. Walker,
490 F.3d 1282, 1294-95, 1295 n.14 (11th Cir. 2007)
[reinstating four improperly stricken jurors and
declining to replace “lost” challenges]; People v.
Perez, 37 A.D.3d 152, 829 N.Y.S.2d 61, 64
(App.Div.2007) [granting additional peremptory
challenges to the party against whom the
peremptory challenges have been misused];
Commonwealth v. Hill, 1999 PA Super. 48, 727
A.2d 578 (Pa.Super.Ct.), appeal den., 747 A.2d
898, 747 A.2d 898 (1999) [same]; People v. Willis,
27 Cal.4th 811, 118 Cal.Rptr.2d 301, 43 P.3d 130,
137 (Cal. 2002) [imposition of a monetary
sanction];19 and Minniefield v. State, 539 N.E.2d
A Batson violation committed by a state or local
governmental party like Metro Government would surely
constitute a deprivation of a constitutional right under the
color of state law or custom. Accordingly, Ward premises
that a litigant subjected to a Batson violation at the hands
of a state or local government actor would also have a cause
of action arising under 42 U.S.C § 1983 to remedy that
violation. In this instance, Ward could certainly make the
case that Metro Government’s constitutional violation has
19

27
464, 466 (Ind. 1989) [declaration of a mistrial]. The
remedy imposed by the trial court was not beyond
the bounds of these remedies.
A Batson violation is an unconstitutional act
and the penalty must be commensurate with the
gravity of the violation. Trial courts are in the best
position to judge such gravity in real time. Thus,
the trial court here was right to consider that
Metro Government violated Batson and then tried
to gin up additional non-discriminatory reasons
after being caught. The trial court would also have
been justified in considering that the violation
occurred at the hands of a government entity in
defending a racial discrimination case.
This Court did not contemplate in Batson that
trial courts were to be hamstrung by state trial
procedures when remedying a violation. Part and
parcel of the policies underlying Batson is
deterring litigants and counsel from employing
racially- discriminatory uses of their peremptory
challenges. The deterrent effect of a remedy is
necessary if Batson is to be given its intended
effect. The remedy should “signal[] to litigants -and to the jury -- that discrimination will not be
tolerated.” Luciano, supra. 10 N.Y.3d at 505. That
remedy statement parallels the intention of the
Batson remedy fashioned by the trial judge in this
instance. It is the same remedy statement to which
Ward is asking this Court to give its imprimatur.
However, the Court of Appeals’ holding places
its demand to rigidly adhere to procedure above
exacerbated the mental anguish which a jury has already
recognized.

28
the constitutional rights of both litigants and
excluded jurors. It also places a demand on the
rigid adherence to procedure above the policy of
deterring violations of those rights. As a matter of
constitutional mandate, normal trial procedures
used for selecting and seating jurors must yield in
the face of a Batson violation.
This Court rooted its holding in Batson upon
the Fourteenth Amendment’s Equal Protection
Clause. 476 U.S. at 88. Yet this case demonstrates
another Equal Protection question - - that being
the availability to fully remediate a Batson
violation depends upon locality. The above-cited
cases demonstrate that trial courts in New York,
Georgia, Maryland or Missouri can permissibly
vindicate a Batson violation by assuring a jury
seat to a jury against whom a peremptory
challenge was impermissibly used. Yet, the import
of the Court of Appeals’ opinion means that
Kentucky trial judges do not possess such
authority on par with their counterparts
elsewhere. The concept of Equal Protection
dictates that litigants and potential jurors should
be treated the same no matter their locality.
Kentucky trial judges must be accorded the same
latitude as trial judges in states like New York,
Georgia, Maryland and Missouri.
It does not strain reasonableness that a trial
court can permissibly insulate a wrongfullydiscriminated juror from a later draw-down
process when eliminating any alternate jurors.
The ultimate relief which Ward asks the Court to
dispense is thus narrow and limited to the precise
situation presented by this case. The Court is not

29
asked to revisit or amend its Batson test. The
Court is simply asked to address one element of
the remedies which it previously countenanced in
Batson regarding the re-seating of a juror against
whom a racially- motivated peremptory challenge
was used.
If Batson is to be given its full effect and remain
a relevant element of American jurisprudence,
trial courts must be empowered to craft
meaningful remedies. They must be empowered to
craft remedies which deter parties and counsel
from employing racially- motivated exercises of
peremptory challenges. Again, this case brings
Batson full circle. It is quite disconcerting that a
discussion about how to satisfactorily remedy the
racially- motivated use of peremptory challenges is
even necessary nearly 35 years after Batson.
C. The academic and judicial criticisms
of Batson demonstrate the necessity
of the Court focusing on ensuring
that remedies have a deterrent effect
on litigants who might consider the
racially- motivated use of peremptory
challenges.
This case further presents an opportunity for
the Court to address the various criticisms leveled
as to the efficacy of Batson. Both academic and
judicial commentators have widely criticized
Batson as being ineffective because of its failure to
curb the use of racially- motivated peremptory
challenges.20 Some commentators have even
See, e.g., Alafair S. Burke, Prosecutors and
Peremptories, 97 Iowa L. Rev. 1467, 1469 (2012); Leonard L.
Cavise, The Batson Doctrine: The Supreme Court’s Utter
20

30
opined that the problem of racially- motivated
peremptory challenges is as pervasive now as in
1986.21 A 2018 Columbia Law Review article
recognized Batson’s shortcomings, particularly the
inability to prevent and remedy violations in real
time.22 In response to these criticisms, some
commentators have, in fact, called on this Court to

Failure to Meet the Challenge of Discrimination in Jury
Selection, 1999 Wis. L. Rev. 501, 501; Charles J. Ogletree,
Just Say No!: A Proposal to Eliminate Racially
Discriminatory Uses of Peremptory Challenges, 31 Am.
Crim. L. Rev. 1099, 1105 (1994); Camille A. Nelson, Batson,
O.J., and Snyder: Lessons from an Intersecting Trilogy, 93
Iowa L. Rev. 1687, 1689 (2008); Ulysses Gene Thibodeaux,
The Changing Face of Jury Selection: Batson and Its
Practical Implications, 56 La. B.J. 408, 409 (2009); Joshua
Revesz, Comment, Ideological Imbalance and the
Peremptory Challenge, 125 Yale L.J. 2535, 2535 (2016);
Kenneth J. Melilli, Batson in Practice: What We Have
Learned About Batson and Peremptory Challenges, 71 Notre
Dame L. Rev. 447, 503 (1996); William T. Pizzi, Batson v.
Kentucky: Curing the Disease but Killing the Patient, 1987
Sup. Ct. Rev. 97, 134); Judging the Prosecution: Why
Abolishing Peremptory Challenges Limits the Dangers of
Prosecutorial Discretion, 119 Harv. L. Rev. 2121, 2134
(2006); Theodore McMillian & Christopher J. Petrini,
Batson v. Kentucky: A Promise Unfulfilled, 58 UMKC L.
Rev. 361, 369 (1990).
See, e.g., Miller-El v. Dretke, 545 U.S. 231, 270 (2005)
(Breyer, J., concurring) (“On the other hand, the use of raceand gender-based stereotypes in the jury-selection process
seems better organized and more systematized than ever
before.”).
21

Jonathan Abel, Batson’s Appellate Appeal and Trial
Tribulations, Columbia Law Review, Vol. 118, No. 3, 713
(May 1, 2018).
22

31
outright ban the use of peremptory challenges
when selecting juries.23
These criticisms of Batson’s overall efficacy are
each fairly leveled. Ward, however, does not stand
with those commentators who might propose a
wholesale prohibition of peremptory challenges.
Ward believes that peremptory challenges serve a
legitimate purpose and are a useful part of the
litigation process. Instead, Ward sees this case as
an opportunity for the Court to approach Batson’s
shortcomings by strengthening the ability of trial
courts to fashion remedies. Part and parcel of
achieving such goal requires that Batson
violations determined in real time must be also
remedied in real time in a manner which fosters
strong deterrence. There is no stronger deterrence
than
litigants
mutually
knowing
that
discriminating against a juror based upon his or
her race could result in that juror ultimately
deciding their case.
Unlike other constitutional violations, this
Court’s opinion in Batson failed to prescribe a
specific and definitive remedy.24 Instead, the
Court in Batson left trial courts to bear the burden
of fashioning remedies. The Court, however,
23

Abel, supra.

For instance, this Court has specifically prescribed the
remedy in addressing other constitutional violations. See,
e.g., Mapp v. Ohio, 367 U.S. 643 (1961) [applying
exclusionary rule to Fourth Amendment violations];
Miranda v. Arizona, 384 U.S. 436 (1966) [applying
exclusionary rule to Fifth Amended violations]; Massiah v.
United States, 377 U.S. 201 (1964) [applying exclusionary
rule to Sixth Amendment violations].
24

32
suggested two specific acceptable remedies,
including reinstating an improperly challenged
juror to the venire panel. 476 U.S. at 99-100 n. 24.
Ward hypothesizes this particular portion of the
Batson opinion was a compromise forged among
the Justices to ensure sufficient majority support
for the underlying constitutional policy. The trial
court here acted consistent with Batson and the
Court of Appeals erred in finding otherwise. The
time has come for the Court to definitely ensure
that judges, attorneys and litigants unmistakably
understand that violating Batson will come at a
heavy price.
Batson rests upon a firm constitutional
foundation and any remedy to a violation rests
upon an equally firm constitutional footing. The
Constitution’s Supremacy Clause and the
Fourteenth Amendment’s Equal Protection Clause
must therefore be held to collectively preclude any
obstacle to effecting its constitutional mandate.
This specifically includes impediments like those
found in state trial procedures such as KY. R. CIV.
P. 47.02. The trial court here understood the
purpose of Batson and accordingly sought to fulfill
its constitutional mandate. The trial court adopted
a constitutionally- permissible remedy by which it
intended to send a deterrent message. This Court
should heartily embrace that deterrent message
and repudiate the opposite message sent by the
Court of Appeals’ opinion.
If the aforementioned academic and judicial
commentators correctly premise that Batson has
failed to effectively eradicate racially- motivated
uses of peremptory challenges, it is thus

33
incumbent upon the Court to focus on the efficacy
of remedies which both dissuade and deter such
violations. This Court should send a strong
message that violating Batson will come at a high
price - - a price which might very well include
owning any juror against whom the litigant
unsuccessfully used a racially- motivated
peremptory challenge.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari to the Kentucky Court of Appeals
should be granted.
Respectfully submitted,
ROBYN SMITH
LAW OFFICE OF
ROBYN SMITH
Counsel of Record
4350 Brownsboro Road
Suite 110
Louisville, KY 40207
(502) 893-4569
firm@robynsmithlaw.com

J. GREGORY TROUTMAN
TROUTMAN LAW
OFFICE, PLLC
4205 Springhurst Boulevard
Suite 201
Louisville, KY 40241
(502) 412-9179
jgtatty@yahoo.com

Co-counsel for Petitioner

March 2021

1a
APPENDIX A
Order of Kentucky Supreme
Court Denying Review
[Filed October 21, 2020]

Supreme Court of Kentucky
2020-SC-0246-D
(NO. 2018-CA-001276-MR
AND
NO. 2018-CA-001330-MR)
MARYSUSAN WARD
v.

MOVANT

JEFFERSON CIRCUIT COURT
16-CI-000330

LOUISVILLE METRO GOVERNMENT RESPONDENT
ORDER DENYING DISCRETIONARY REVIEW

The motion for review of the decision of the
Court of Appeals is denied.
Entered: October 21, 2020.

2a
APPENDIX B
Opinion of the Kentucky Court of Appeals
[Filed April 10, 2020]

Commonwealth of Kentucky
Court of Appeals
NO. 2018-CA-001276-MR
AND
NO. 2018-CA-001330-MR

LOUISVILLE METRO GOVERNMENT
APPELLANT/CROSS-APPELLEE
v.
MARYSUSAN WARD
APPELLEE/CROSS-APPELLANT
APPEAL AND CROSS-APPEAL FROM
JEFFERSON CIRCUIT COURT HONORABLE
OLU A. STEVENS, JUDGE
ACTION NO. 16-CI-000330
BRIEFS
FOR
APPELLANT/CROSSAPPELLEE: Patricia C. Le Meur Louisville,
Kentucky J. Denis Ogburn Jefferson County
Attorney's Office Louisville, Kentucky
BRIEFS
FOR
APPELLEE/CROSSAPPELLANT: Robyn Smith Louisville, Kentucky

3a
AMICUS CURIAE BRIEF FOR BRANDEIS
SCHOOL OF LAW BLACK LAW STUDENTS
ASSOCIATION AND THE AMERICAN CIVIL
LIBERTIES UNION OF KENTUCKY: John S.
Friend Louisville, Kentucky Samuel A. Marcosson
Pro Hac Vice Louisville, Kentucky
BEFORE: JONES, LAMBERT, AND L.
THOMPSON, JUDGES.
OPINION
JONES, JUDGE:
Appellee/cross-appellant, MarySusan Ward,
initiated the underlying action in Jefferson Circuit
Court against Louisville-Jefferson County Metro
Government ("Louisville Metro") after she was
separated from her employment following a
contentious counseling meeting with her manager.
Ward sought damages for a violation of her due
process rights,1 pay-related racial discrimination,
and retaliation. During trial, Ward challenged two of
Louisville Metro's peremptory jury strikes as being
racially motivated in violation of Batson v. Kentucky,
476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d 69 (1986).
The trial court sustained one of the two Batson
challenges.
As a remedy for this violation, the trial court
placed the juror back on the panel. A fifteen-member
panel, which included the subject juror, heard the
The trial court granted Louisville Metro's motion for a
directed verdict in its favor with respect to Ward's due
process claim. That claim is not part of the instant appeals.
1

4a
case. Prior to selecting the final twelve deliberating
jurors, a discussion arose regarding what to do about
the Batson juror. Ultimately, the trial court told the
parties that the subject juror would automatically be
part of the deliberating jury and directed the deputy
clerk to remove that juror's name from the
drawdown pool. The deliberating jury, which
included the subject juror, returned a verdict in favor
of Louisville Metro on Ward's pay discrimination
claim, but found in Ward's favor on the retaliation
claim for which it awarded her a total of $880, 030.80
in damages.2
On appeal, Louisville Metro asserts the trial
court committed reversible error in: (1) failing to
enter a directed verdict on the retaliation and
discrimination claims; (2) sustaining the Batson
challenge; and (3) subsequently insulating the
subject juror from the drawdown process. Ward filed
a conditional cross-appeal arguing that in the event
this Court vacates the jury's verdict, on retrial the
trial court should be directed to allow evidence
regarding Louisville Metro's resignation policy for
the purpose of showing that Ward's purported
resignation was not effective.
Following a careful review of the record and
applicable law, we affirm the trial court's denial of
Louisville Metro's motion for a directed verdict on
the retaliation and discrimination claims as there
was sufficient evidence presented to allow the jury to
decide these claims; we likewise affirm the trial
court's decision to sustain the Batson challenge
The jury awarded $30, 030.80 in lost wages and $850,
000.00 for embarrassment, humiliation, and mental and
emotional distress.
2

5a
insomuch as there was some evidence that the
proffered reasons for the strike were pretextual and
that the strike was racially motivated. However, we
hold that the trial court committed reversible error
when it insulated the subject juror from the
drawdown process. Batson is designed to ensure that
jurors are not unfairly discriminated against. In this
case, the trial court's remedy went too far; instead of
allowing the subject juror to be treated equally in
terms of ability to serve, the remedy removed the
element of fairness that a random draw affords.
Because the verdict was rendered by a unfairly
selected jury, we must vacate it in its entirety and
remand for a new trial at which Ward should be
permitted to introduce evidence related to the
resignation policies of Louisville Metro.
I. Background
MarySusan Ward, an African-American female,
worked in Louisville Metro's Department of Public
Health and Wellness for approximately eight years,
beginning in 2007, when she was hired as an
Administrative Assistant. In November 2011,
Tammy Anderson, a Caucasian female, was
appointed as the Assistant Director of that
department. Anderson became Ward's direct
supervisor. Prior to November 2011, Ward received
generally good reviews, including positive
recognition when she successfully addressed
constructive criticism regarding her customer
service skills.
Ward's performance reviews remained consistent
in the years following, although the only raises Ward
received were annual costs of living wage increases
to her salary. Eventually, with Anderson's support,

6a
Ward was promoted to an Administrative Specialist
position, which was accompanied by a pay increase.
Throughout the course of their working relationship,
Anderson accommodated Ward's requests to work
alternative hours and to use a temporarily vacant
executive assistant office instead of her desk in the
reception area. Anderson attempted to resolve
interoffice relationship issues as they arose,
although they were not always addressed to Ward's
satisfaction. Ward reportedly clashed with some of
her coworkers, including two women (one AfricanAmerican and one Caucasian) who successively held
the Executive Assistant position in her department.
On September 30, 2015, Ward filed a complaint
with Louisville Metro's Human Resources
Compliance Division alleging race discrimination in
the form of wage disparity and unspecified
retaliation by Anderson.3 Ward and another AfricanAmerican Louisville Metro employee, Robyn
Dickerson, had researched public pay records during
the 2014-2016 time period and discovered that
several Caucasian Louisville Metro employees had
received raises and promotions. Dickerson and Ward
alleged that Caucasian employees were given raises
that exceeded those normally permitted by
Louisville Metro's policies and that supervisors, like
Anderson, advocated for raises for Caucasian
employees but did not do the same for similarly
situated African-American employees.
Under Louisville Metro's policy, some managers,
like Anderson, have the discretion to advocate - or
Ward would later supplement this complaint to allege that
a counseling mandated by Anderson was retaliation.
3

7a
refuse to advocate - for employees in extraordinary
wage decisions.4 Promotions, reclassifications, and
their accompanying pay raises are premised on a
variety of factors including education, experience,
and seniority. Dickerson, a Community Heath
Supervisor, belonged to a separate federally-funded
division from Ward's in which supervisors lacked the
flexibility regarding salaries and other budgetary
matters compared with other divisions.
After their review of fellow Louisville Metro
employees' salaries, Ward and Dickerson came to
believe that they were being discriminatorily passed
over for raises in favor of Caucasian employees.
Dickerson claimed that, during the 2014-2016
period, some of Louisville Metro's Caucasian
workers were receiving increases of 10-21% within a
single year, despite Louisville Metro policies limiting
pay increases to 10%. Dickerson herself began
taking on additional duties within her department
in 2015, although an internal job audit determined
that her work increase did not merit a pay raise.
Ward's wage-discrimination complaint was
premised primarily upon the fact that the new
Executive Assistant, Linda Gillock, had received a
large pay increase during the first months of her
probationary period with Anderson's aid. Gillock, a
Caucasian female, was newly appointed to an
Executive Assistant position with different job
duties and minimum requirements than Ward's
Administrative Assistant position. Anderson
advocated for Gillock's 10% raise, leading Ward to
Louisville Metro classifies pay increases over 10% as
extraordinary.
4

8a
suspect that Anderson was advocating for Gillock in
a way that she had not done for Ward. According to
Louisville Metro, Gillock's raise was merited due to
her low starting salary, her significant relevant
experience in the Mayor's office, and a salary
comparison against similarly situated Louisville
Metro employees. The resulting raise put her in the
same salary range as Gillock's predecessor, who was
African-American.
The Human Resources Compliance Division
ultimately determined that Ward's original claims of
pay disparity, race discrimination, and retaliation
were unsubstantiated. The parties dispute whether
Anderson was aware at the time that Ward had filed
a discrimination complaint against her, although it
was around that time that Anderson began to take
more scrutinizing notes regarding Ward's job
performance.
Late that same September, Anderson was alerted
that Ward's name had appeared on an automatically
generated list produced by Louisville Metro's Office
of Performance Improvement, identifying Ward as
an employee who demonstrated a high use of sick
leave. According to Louisville Metro's policy, "high"
use of sick leave is defined as nine unexcused
absences and/or six "occurrences," and necessitates a
formal counseling session. Under Louisville Metro
policy, counseling is designed to notify an employee
of minor issues that need correcting, such as
attendance. The supervisor of such an employee is
required to conduct a formal meeting to discuss the
issue with the employee and outline steps to correct
the issue. At trial, the parties disputed whether
counseling was a punitive measure. While

9a
counseling itself does not entail any loss of benefits,
decrease of pay, demotion, or other change in
working conditions, Ward noted that counseling is a
first step toward more serious discipline.
Upon receipt of Louisville Metro's list, Anderson
advised Ward that she would be required to
participate in counseling as a result of her inclusion
on the list. When Anderson asked Ward to provide
doctors' notes for her missing days to decrease her
number of unexcused absences, Ward provided notes
for only some of the missed days and was again
included on the October 2015 sick leave report.
Despite this, Ward rebuffed Anderson's initial
attempt to provide counseling, contesting the report
and refusing to discuss attendance. She later agreed
to meet after Anderson reviewed the data again.
That following week, on October 27, 2015,
Anderson conducted Ward's counseling regarding
her use of sick leave. Anderson asked Katherine
Turner, the division's Communications Director, to
attend Ward's counseling as an objective third party.
Turner suggested recording the counseling, which
she testified she did commonly to create an accurate
record of meetings. Although she did not record most
employee interactions, Anderson agreed. Although
neither Anderson nor Turner informed Ward that
the session was being recorded, Turner made no
attempt to conceal the phone or her active recording.
Anderson began the meeting by reviewing with
Ward the documentation of her sick leave use and
doctors' notes, explaining how she counted the
absences and answering Ward's questions. Anderson
also provided Ward with a written record of the
counseling, which outlined Ward's attendance

10a
issues, identified applicable Louisville Metro
policies, and listed corrective actions Ward could
take to avoid progressive disciplinary action. The
subject of the meeting then drifted as tensions rose,
and Ward began to bring up issues that she had with
departmental discipline, criticizing both her fellow
employees and Anderson's leadership. When Ward
asked for a restroom break, Anderson instructed her
to come "right back." Anderson testified that she
wanted Ward to come back so that so she could pay
Ward a compliment and keep the meeting from
ending on a bad note.
Upon Ward's return, tensions did not abate, and
the conversation veered in "a whole different
direction" with "one thing [leading] to another" after
Ward refused to accept Anderson's compliments.
Video Record ("VR") 7.11.18 4:14:10-4:15:20.
Anderson deviated from the original counseling topic
into other, unrelated criticism, which Ward rejected
or disputed, providing her own criticisms of
Anderson and their other coworkers. As the
conversation wore on, Anderson informed Ward that
"the whole department is complaining about you"
and that Ward "never [took] responsibility" for her
actions because she "thought [she] was above policy."
VR 7.11.18 4:42:10-4:43:39; VR 7.11.18 4:43:524:44:20. At several points in the conversation,
Anderson involved Turner to reiterate her
criticisms.
Rather abruptly, Ward announced, "I think that
I've made my decision. I'm going to go ahead and
resign at this point." VR 7.12.18 4:08:53-58.
Anderson asked if Ward wanted some time to think
about her decision, which Ward declined, and

11a
Anderson accepted her verbal resignation. Ward
then left the room, took her break, and worked the
rest of the day without incident. She then called
Human Resources, who told Ward that an official
resignation needed to be in writing to be effective
and that she did not have to follow through on her
verbal resignation if she had changed her mind or
wanted to await the outcome of the then-pending
investigation into Ward's discrimination complaint.
Ward testified that after speaking with Human
Resources, she changed her mind about resigning
and decided not to follow through with the process.
She reported to work as usual the next morning.
Upon arriving at her work station, Ward discovered
that she was not able to log into her work computer.
Anderson then met with Ward. Anderson told Ward
that she had resigned and that she no longer worked
at Louisville Metro. In response, Ward told
Anderson that she had not resigned because she had
not completed the written process. When Anderson
pressed, Ward eventually said that she had come in
with the intention of submitting her two-week
notice. Anderson did not back down. She maintained
that Ward's verbal resignation was effective, that
Ward did not have the option of revoking the
resignation, and that Ward was no longer employed
at Louisville Metro as of the prior day, making it
unnecessary for her to give a two-week notice.
Anderson then asked another Louisville Metro
worker, a "big" man, to escort Ward from the
building. VR 7.11.18 5:03:15-5:10:51. Ward called
Human Resources and reported that Anderson was
retaliating against her for her discrimination
complaint and that she did not want to resign.

12a
That same day, Ward authorized her attorney to
transmit a letter to the Interim Director of the
Health Department explaining that she had not
resigned but had instead been prevented from
working, which the Interim Director handed off to
Anderson. There is no evidence that the accusations
of retaliation contained in Ward's letter were ever
investigated by anyone at Louisville Metro. Ward
was met with silence once again when her attorney
sent a letter to the Director of Human Resources to
begin the grievance process. That process applies in
situations
of
involuntary
termination
not
resignation.
Ultimately, Ward filed suit against Louisville
Metro on January 21, 2016, asserting three claims:
(1) violation of due process for not allowing Ward to
revoke her resignation; (2) race discrimination; and
(3) retaliation. Trial began as scheduled on July 10,
2018.
The parties completed voir dire and jury selection
on the first day of trial. The trial court made its
random strikes first, and thirteen panel members
were excused by random draw, leaving a sufficient
number to seat twelve jurors and two alternates
after the parties each exercised their four
peremptory strikes. In exercising its peremptory
strikes, Louisville Metro eliminated Jurors 4879 and
4206.
Ward
challenged
Louisville
Metro's
elimination of these two jurors under Batson, as both
jurors were African-American and comprised two of
only three African-American individuals remaining
on the jury after preliminary strikes.
At the court's request, Louisville Metro provided
the reasoning behind its peremptory strikes.

13a
According to Louisville Metro, Juror 4206 was likely
to be more inclined to view Ward's argument more
favorably due to her personal ties, as she currently
worked at Louisville Metro and went to church with
a potential trial witness. When called upon to supply
its nondiscriminatory basis for striking Juror 4879,
Louisville Metro explained that Juror 4879 was a
"union employee and . . . union employees are not
good for the [employers] . . . and plus, he also said . .
. he had a problem previously with how he was
treated at a - in buying a car, or looking at a car, and
. . . I got a feeling that was going to affect his
behavior in this case, but the main reason he was
struck was because of a union." VR 7.10.18 4:12:504:13:40.
Ward responded that at least five other
Caucasian members of the venire were union
members, two of whom were current union workers.
Ward posited that Louisville Metro's failure to strike
any of the other five union members was "the very
definition of a pretextual reason." VR 7.10.18
4:15:02-08. Ward pointed out that another
Caucasian venire member who had not been stricken
by Louisville Metro had also discussed experiences
of discrimination.
The trial court found in favor of Louisville Metro
with regard to Juror 4206. However, the trial court
then determined Ward had carried her burden of
proof and demonstrated that Louisville Metro's
proffered reasons for exercising its peremptory
strikes against Juror 4879 were pretextual. The trial
court placed Juror 4879 back on the jury, finding
that Louisville Metro's actual basis for the strike
was a discriminatory motive. The court specifically

14a
stated:
I'm more concerned based on what has
been presented. [Juror 4879] will be put
back on the jury. I'm going to sustain the
motion as it relates to [Juror 4879] because
the burden of proof has been met initially.
It, according to the second step, [Louisville
Metro]'s put forth a race-neutral reason
but the burden-shifting and the reasons one of the ways that one can show pretext
is to show that there are - in this instance white members of the jury who were also
union members and they were left on the
jury. So that burden's been met.
VR 7.10.18 4:17:21-4:18:10. The trial court did
not directly address Louisville Metro's additional
reason for striking Juror 4879 - his prior experience
of discrimination.
Following the trial court's ruling, Louisville
Metro attempted to supplement its argument for
striking Juror 4879, arguing that one of the
Caucasian union members had more education than
the African-American union worker, and "high
education favors the defendant." VR 7.10.18 4:18:104:19:45. The court then rejected this alternative
basis for the strike, stating that Louisville Metro had
been required to supply its nondiscriminatory bases
up front and could not put forth additional reasons
now that the court had already ruled. The court
stated that allowing a post hoc explanation, "would
defeat the whole purpose of Batson to begin with, if
you were allowed to put forth additional reasons
after [the court] ruled." VR 7.10.18 4:18:50-4:19:01.
It further remarked that if union membership was
actually a legitimate criterion on which Louisville
Metro decided, Louisville Metro should have

15a
stricken some of the other union members from the
panel.
After replacing Juror 4879 on the panel, the court
reduced the jury further by random strike, and
fifteen jurors, representing a jury of twelve and three
alternates, were sworn in to hear the case. The court
then decided that it could ultimately choose to
insulate Juror 4879 from the final random
drawdown of alternates, because if the reinstated
juror could be randomly eliminated after a finding of
intentional discrimination, "it would defeat the
purpose for which Batson motions are made by
eliminating a juror who was placed back on
randomly." VR 7.10.18 4:19:55-4:21:21. Juror 4879
was, in effect, guaranteed a seat on the jury.
After three days of trial, Ward rested her case
and Louisville Metro moved for a directed verdict on
all counts. With regard to Ward's race
discrimination claim, Louisville Metro argued that
for Ward to prove pay discrimination, she had to
provide proof of pay disparity between similarly
situated African-American and Caucasian workers.
Louisville Metro argued that Ward had not come
forward with any evidence of Louisville Metro
paying a similarly situated employee more. As for
the retaliation claim, Louisville Metro's defense was
three-fold: (1) that the counseling meeting was not
an adverse action; (2) that Anderson did not know
about Ward's complaint at the time of her separation
and thus could not have retaliated against her; and
(3) that Louisville Metro's refusal to accept
rescission of a resignation is not an adverse action.
Finally, Louisville Metro asserted that Ward had
failed to state a cognizable due process claim based

16a
on Louisville Metro's alleged failure to follow its
resignation policy. The trial court granted a directed
verdict in favor of Louisville Metro on the due
process claim but denied its motions as related to the
race discrimination and retaliation claims, finding
that there was sufficient evidence presented by
Ward for the jury to find in her favor on both claims.
As the trial court had previously indicated, Juror
4879 was not subjected to the random drawdown of
alternates. The trial court reiterated its decision to
protect Juror 4879 from the random draw of
alternates as follows:
That juror [4879] will be on the jury, on the
12-person deliberating jury. The other
jurors are subject to elimination by random
draw, and that juror's number . . . I'm
pretty sure that that juror has been taken
out and will remain out. That means he
will be one of the twelve that go back to
deliberate. The other fourteen are subject
to elimination by random draw when the
Madame Clerk comes out . . . . So we'll draw
three, and those numbers will not go back
with the twelve-person deliberating jury.
But, yes, indeed, he's assured of being one
of the numbers by the fact that he will not
be in the box but three still need to be
selected.
VR 7.16.18 1:00:38-1:01:46. After the drawdown
eleven jurors plus Juror 4879 were left. These twelve
jurors then retired to deliberate. They returned with
two unanimous findings. First, the jurors found that
Ward had experienced retaliation in violation of
KRS5 344; second, they voted to award Ward $30,
030.80, the full amount of lost wages she claimed.
5

Kentucky Revised Statutes

17a
The jurors were divided on the remaining two issues.
The jury rejected Ward's race discrimination claim
9-3. However, the jury also decided 9-3 to award
Ward $850, 000.00 for mental and emotional
distress. Neither Ward nor Louisville Metro polled
the jury, leaving it unknown as to whether Juror
4879 voted with or against the majority of the
panelists on any of the claims.
The trial court entered a final judgment of the
jury's award of $880, 030.80 plus an additional $151,
508.10 for costs and fees on August 17, 2018.
Louisville Metro filed a timely appeal on August 21,
2018, and Ward followed with her timely notice of
conditional cross-appeal on August 31, 2018.
II. Analysis
A. Directed Verdict
We will first address Louisville Metro's argument
concerning the trial court's failure to enter a directed
verdict in its favor on all counts, as a reversal on this
basis would obviate the need to consider the other
arguments.
A motion for directed verdict "raises only
questions of law as to whether there is any evidence
to support a verdict." Harris v. Cozatt, Inc., 427
S.W.2d 574, 575 (Ky. 1968) (emphasis added). As
such, if there is any "conflicting evidence, it is the
responsibility of the jury, the trier of fact, to resolve
such conflicts." Daniels v. CDB Bell, LLC, 300
S.W.3d 204, 215 (Ky. App. 2009). It is not the trial
court's role to consider the credibility or weight of the
proffered evidence. "[A] trial judge cannot enter a
directed verdict unless there is a complete absence
of proof on a material issue or if no disputed issues

18a
of fact exist upon which reasonable minds could
differ." Bierman v. Klapheke, 967 S.W.2d 16, 18-19
(Ky. 1998) (citation and internal quotation marks
omitted). This is a high burden to meet.
In ruling on either a motion for a directed
verdict or a motion for judgment
notwithstanding the verdict, a trial court is
under a duty to consider the evidence in the
strongest possible light in favor of the party
opposing the motion. Furthermore, it is
required to give the opposing party the
advantage of every fair and reasonable
inference which can be drawn from the
evidence. And, it is precluded from
entering either a directed verdict or
judgment n.o.v. unless there is a complete
absence of proof on a material issue in the
action, or if no disputed issue of fact exists
upon which reasonable men could differ.
Peters v. Wooten, 297 S.W.3d 55, 65 (Ky. App. 2009)
(quoting Taylor v. Kennedy, 700 S.W.2d 415, 416
(Ky. App. 1985)).
Appellate review of the trial court's denial of a
motion for directed verdict is not limited to
evaluating the reasons proffered by the trial court
for its denial. "Rather, we must make our own review
of the entire record to determine whether the trial
court's ruling was clearly erroneous." Brooks v.
Lexington-Fayette Urban Cty. Housing. Auth., 132
S.W.3d 790, 798 (Ky. 2004).
Upon review of the evidence supporting a
judgment entered upon a jury verdict, the
role of an appellate court is limited to
determining whether the trial court erred
in failing to grant the motion for directed
verdict. All evidence which favors the
prevailing party must be taken as true and

19a
the reviewing court is not at liberty to
determine credibility or the weight which
should be given to the evidence, these being
functions reserved to the trier of fact. The
prevailing party is entitled to all
reasonable inferences which may be drawn
from the evidence. Upon completion of such
an evidentiary review, the appellate court
must determine whether the verdict
rendered is "'palpably or flagrantly' against
the evidence so as 'to indicate that it was
reached as a result of passion or
prejudice.'"
Lewis v. Bledsoe Surface Mining Co., 798 S.W.2d
459, 461-62 (Ky. 1990) (citations omitted).
KRS 344.280(1) makes it unlawful for one or more
persons "[t]o retaliate or discriminate in any manner
against a person . . . because he has made a charge,
filed a complaint, testified, assisted, or participated
in any manner in any investigation, proceeding, or
hearing under this chapter[.]" A prima facie case of
retaliation requires a plaintiff to demonstrate: (1)
that the plaintiff engaged in a protected activity; (2)
that protected activity was known by the employer;
(3) that, thereafter, the employer took an adverse
action against the plaintiff; and (4) that there was a
causal connection between the protected activity and
the adverse employment action. Brooks, 132 S.W.3d
at 803.
Louisville Metro contends that it was entitled to
a directed verdict on Ward's retaliation claim
because she failed to offer evidence that Louisville
Metro took an adverse employment action against
her or that there was any causal connection between
any such action and her protected action of making
a discrimination claim against Anderson. As to the

20a
adverse employment action, there was some dispute
regarding the effect a counseling session would have
on Ward and whether the session she took part in
would be recorded in her permanent file. Even if this
were not sufficient to count as an adverse action,
there remains the larger question of whether Ward
resigned or was terminated. Ward contends that her
verbal resignation was ineffective because she was
told by Human Resources that resignations had to
be in writing. As such, she contends that she was
actually terminated. We believe Ward presented
sufficient evidence from which a jury could conclude
that she suffered some adverse employment action.
As to the issue of causation, the jury was likewise
presented conflicting facts regarding Anderson's
knowledge of the complaint Ward filed and whether
any such knowledge played into Anderson's action as
related to Ward. Therefore, we must affirm the trial
court's decision to deny Louisville Metro's motion for
a directed verdict on the retaliation claim.
With respect to Ward's discrimination claim,
Louisville Metro claims that it was entitled to a
directed verdict because Ward failed to offer
evidence that any similarly situated employees
outside of her protected class were systematically
treated better than she. To establish a prima facie
case of discrimination, Ward must offer evidence
demonstrating discrimination "against an individual
with respect to compensation, terms, conditions, or
privileges of employment, because of the individual's
race[.]" KRS 344.040(1)(a). Absent direct evidence of
discrimination, Kentucky recognizes the McDonnell
Douglas Corporation v. Green, 411 U.S. 792, 93 S.Ct.
1817, 36 L.Ed.2d 668 (1973) burden-shifting formula

21a
"as the procedural framework within which to
evaluate the merits of a discrimination claim," which
"allows a plaintiff . . . to establish her case through
'inferential and circumstantial proof' when direct
evidence of discrimination 'is hard to come by[.]'"
Overly v. Morehead State University, No. 2013-CA002008-MR, 2015 WL 7422820, at *5 (Ky. App. Nov.
20, 2015) (citing Williams v. Wal-Mart Stores, Inc.,
184 S.W.3d 492, 495-96 (Ky. 2005) (other citation
omitted)). On this claim, we also agree with the trial
court. Ward did present some circumstantial
evidence to support her discrimination claim with
respect to the advocacy and raises given to other
employees during the relevant time period. The trial
court did not err in allowing this claim to go to the
jury.
B. Batson Challenge
"The use of peremptory challenges to remove
jurors from the venire on the basis of race or gender
violates the Equal Protection Clause of the
Constitution." Ross v. Commonwealth, 455 S.W.3d
899, 906 (Ky. 2015) (citations omitted). The United
States Supreme Court outlined the three-step
process for evaluating equal protection challenges to
jury selection practices in its 1986 decision, Batson
v. Kentucky. Id.
First, the [challenging party] must make a
prima facie showing that the [other party]
has exercised peremptory challenges on
the basis of race. . . . Second, if the requisite
showing has been made, the burden shifts
to the [other party] to articulate a raceneutral explanation for striking the jurors
in question. . . . Finally, the trial court must

22a
determine whether the [challenging party]
has carried his burden of proving
purposeful discrimination.
Commonwealth v. Snodgrass, 831 S.W.2d 176, 178
(Ky. 1992) (citing Batson, 476 U.S. at 96-98, 106
S.Ct. at 1722-24).
The trial court's "ultimate decision on a Batson
challenge is akin to a finding of fact[.]" Roe v.
Commonwealth, 493 S.W.3d 814, 827 (Ky. 2015)
(citation omitted). "Because the trial court is the best
'judge' of [a party's] motives in exercising its
peremptory strikes, great deference is given to the
court's ruling." Gray v. Commonwealth, 203 S.W.3d
679, 691 (Ky. 2006) (citing Wells v. Commonwealth,
892 S.W.2d 299, 303 (Ky. 1995)). This "ʻ[d]eference,'
of course, does not mean that the appellate court is
powerless to provide independent review[.]" Rodgers
v. Commonwealth, 285 S.W.3d 740, 757 (Ky. 2009)
(citations omitted).
On review, a trial court's ruling regarding Batson
challenges will not be disturbed absent clear error,
i.e., when it is not supported by substantial evidence.
Washington v. Commonwealth, 34 S.W.3d 376, 37980 (Ky. 2000).
"[S]ubstantial evidence" is "[e]vidence that
a reasonable mind would accept as
adequate to support a conclusion" and
evidence that, when "taken alone or in the
light of all the evidence, . . . has sufficient
probative value to induce conviction in the
minds of reasonable men." Regardless of
conflicting evidence, the weight of the
evidence, or the fact that the reviewing
court would have reached a contrary
finding, "due regard shall be given to the

23a
opportunity of the trial court to judge []
credibility . . . ."
Moore v. Asente, 110 S.W.3d 336, 354 (Ky. 2003)
(citations omitted).
The trial court acknowledged Louisville Metro
struck two of the three African-American venire
members who remained following strikes for cause
and the trial court's own random draws. However,
"Batson requires more than a simple numerical
calculation[, ]" so the challenging party must
"establish as complete a record of the circumstances
as is feasible [and] show a strong likelihood that
such persons are being challenged because of their
group association rather than because of a specific
bias." Commonwealth v. Hardy, 775 S.W.2d 919, 920
(Ky. 1989) (citations omitted).
Initially, Ward called the trial court's attention to
Juror 4879's lack of any "particular animus or bias,"
and noted that his only brief mention of race
pertained to how he preferred to describe his own
race. VR 7.10.18 4:10:48-4:13:35. Ward accompanied
this explanation with the fact that Louisville Metro
exercised two of its preemptory challenges to remove
two of three remaining African-Americans on the
pool. Having reviewed the record, we agree with
Ward that the trial court acted within its discretion
in finding that Ward met her burden of establishing
a prima facie Batson violation.
Turning then to the second step of the inquiry,
the trial court asked Louisville Metro to provide its
"race-neutral explanation for striking a juror of a
protected class." Roe, 493 S.W.3d at 827 (citation
omitted). "Unless a discriminatory intent is inherent

24a
in the [challenged party's] explanation, the reason
offered will be deemed race neutral." Hernandez v.
New York, 500 U.S. 352, 360, 111 S.Ct. 1859, 1866,
114 L.Ed.2d 395 (1991). However, our Supreme
Court has also cautioned that "'[w]hile the reasons
need not rise to the level justifying a challenge for
cause,' self-serving explanations based on intuition
or disclaimers of discriminatory motive" are
insufficient. Washington, 34 S.W.3d at 379 (quoting
Stanford v. Commonwealth, 793 S.W.2d 112, 114
(Ky. 1990)).
Louisville Metro then gave its two race-neutral
reasons for using a peremptory strike against Juror
4879: (1) his union membership; and (2) his past
experience of discrimination. Louisville Metro
argued that these two characteristics would make it
more likely that Juror 4879 would be sympathetic
toward Ward's position and stated, "I got the feeling
that was going to affect his behavior in this case, but
the main reason he was struck was because of a
union." VR 7.10.18 4:13:28-35. Ward countered,
pointing out that Louisville Metro failed to strike
any of the other five white union members or the
white juror with prior experience of discrimination.
Under the final step of Batson, "the trial court
must assess the plausibility of the [challenged
party's] explanations in light of all relevant evidence
and determine whether the proffered reasons are
legitimate or simply pretextual for discrimination
against the targeted class." McPherson v.
Commonwealth, 171 S.W.3d 1, 3 (Ky. 2005) (citation
omitted). The critical question at this stage is how
credible the challenged party's justification is for his
peremptory strike, as "implausible or fantastic

25a
justifications may (and probably will) be found to be
pretexts for purposeful discrimination." Miller-El v.
Cockrell, 537 U.S. 322, 339, 123 S.Ct. 1029, 1040,
154 L.Ed.2d 931 (2003) (citation omitted).
"[W]hen illegitimate grounds like race are
in issue, a [party] simply has got to state
his reasons as best he can and stand or fall
on the plausibility of the reasons he gives.
A Batson challenge does not call for a mere
exercise in thinking up any rational basis.
If the stated reason does not hold up, its
pretextual significance does not fade
because a trial judge, or an appeals court,
can imagine a reason that might not have
been shown up as false.
Miller-El v. Dretke, 545 U.S. 231, 252, 125 S.Ct.
2317, 2332, 162 L.Ed.2d 196 (2005).
The credibility of the challenged party's reasons
may be measured by "how reasonable, or how
improbable, the explanations are[, ] and by whether
the proffered rationale has some basis in accepted
trial strategy." Cockrell, 537 U.S. at 339, 123 S.Ct.
at 1040. The trial court must consider "all relevant
evidence," including the pattern of exercising strikes
from the venire based on race or gender and the
nature of the questions posed on voir dire. See
Johnson v. Commonwealth, 450 S.W.3d 696, 706
(Ky. 2014), abrogated on other grounds by Roe v.
Commonwealth, 493 S.W.3d 814 (Ky. 2015); Hardy,
775 S.W.2d at 920.
The trial court considered Louisville Metro's and
Ward's explanations in turn, evaluating the
credibility of the proffered reasons for purposeful
discrimination. The trial court found Louisville
Metro's reasons to be pretext for purposeful

26a
discrimination, explaining, "[O]ne of the ways that
one can show pretext is to show that there are - in
this instance - white members of the jury who were
also union members and they were left on the jury.
So that burden's been met." VR 7.10.18 4:17:584:18:10. The trial court did not directly address
Louisville Metro's additional reason for striking
Juror 4879 - his prior experience of discrimination.
Ultimately, however, we find no clear error in the
trial court's evaluation, and so we defer to the trial
court's fact-finding ability.
Certainly, the statements Louisville Metro gave
after the trial court rendered its judgment on the
matter suggest that counsel was floundering for an
additional argument that might lend credence to its
earlier proffered explanations. The Supreme Court
has previously commented that race-neutral reasons
added after the fact "reek[] of afterthought" and
should therefore be disregarded. Dretke, 545 U.S. at
246, 125 S.Ct. at 2328. It is for this very reason that
we disregard Louisville Metro's additional
clarification regarding the comparative education
levels of the other venire members belonging to
unions.
Both the United States and the Kentucky
Constitutions establish and recognize the right to a
completely
impartial
jury.
Ordway
v.
Commonwealth, 391 S.W.3d 762, 780 (Ky. 2013)
(citing Fugett v. Commonwealth, 250 S.W.3d 604,
612 (Ky. 2008)). "Those on the venire must be
'indifferently chosen,' to secure the defendant's right
under the Fourteenth Amendment to 'protection of
life and liberty against race or color prejudice.'"
Batson, 476 U.S. at 86-87, 106 S.Ct. at 1717-18

27a
(citations omitted). The right to a completely
impartial jury does not entitle parties to a jury of any
particular composition. Commonwealth v. Doss, 510
S.W.3d 830, 835 (Ky. 2016).
The right to an impartial jury, however,
does not afford a litigant the right to a jury
that includes one or more members of his
or her ethnic or racial background,
religious creed, gender, profession, or other
personal characteristic by which one is
identified.
The
impossibility
of
constructing a jury of 12 persons that
"insure[s] representation of every distinct
voice in the community" is obvious and well
recognized.
Id. (citing Williams v. Florida, 399 U.S. 78, 102, 90
S.Ct. 1893, 26 L.Ed.2d 446 (1970)). The only point at
which parties are entitled to a fair cross-section of
the community is when the jurors assemble in the
jury pool on the first day of jury service.
Commonwealth v. Stevens, 489 S.W.3d 755, 763 (Ky.
App. 2016); Stanford v. Commonwealth, 734 S.W.2d
781, 785 (Ky. 1987) (quoting Pope v. United States,
372 F.2d 710, 725 (8th Cir. 1967)).
In the eyes of the Supreme Court of Kentucky,
random selection is one of the most effective tools for
avoiding the effects of both overt and subconscious
bias and ensuring trial by an impartial jury. Doss,
510 S.W.3d at 836. Randomness is embedded at
multiple stages of jury selection - selection of the voir
dire panel, random draws excusing excess venire
members, and the additional random draw of
alternates at the close of proof. CR6 47.02, 47.03.
Randomness ensures that "at no time at all, will
6

Kentucky Rules of Civil Procedure.

28a
anyone involved be able to know in advance, or
manipulate, the list of names who will eventually
compose
the
empaneled
jury."
Hayes
v.
Commonwealth, 320 S.W.3d 93, 99 (Ky. 2010)
(quoting Williams v. Commonwealth, 734 S.W.2d
810, 812 (Ky. App. 1987)).
Although federal civil proceedings have done
away with the practice of seating alternate jurors in
civil trials, Kentucky trial courts continue to permit
the practice in combination with a final random jury
selection. After an enlarged jury panel hears a case
through closing, the jurors' names are put in the box
from which the panel is drawn at random, and a fair
cross-section can no longer be guaranteed. CR 47.02.
Ward argues that designating a specific juror for
the final panel above the other jurors is within the
trial court's discretion as an appropriate remedy for
a Batson violation. In doing so, she attempts to draw
a parallel between Hubbard v. Commonwealth and
the present case. Hubbard v. Commonwealth, 932
S.W.2d 381, 382 (Ky. App. 1996). In that case, the
trial court dismissed one of thirteen jurors
impaneled when she revealed to the court after the
conclusion of evidence that her religious convictions
prevented her from judging any person guilty. Id.
The trial judge was forced to reconsider the
appropriateness of her serving on the jury and
decided to dismiss the juror, bypassing the final
random drawdown. Id. This Court affirmed that
decision, stating that "[t]he trial court's dismissal of
the juror by designating her as the alternate did not
interfere with the randomness of the jury selection
process." Id. at 383 (citing George v. Commonwealth,
885 S.W.2d 938, 941 (Ky. 1994)).

29a
The distinction between Hubbard and the
present appeal lies in the difference between
preserving the impartiality of the jury and
preserving the makeup of the jury. The Hubbard
court removed an unsuitable juror from the
drawdown because she would be unable to render a
fair and impartial verdict, whereas the trial court in
Ward's case guaranteed one juror a spot on the
deciding panel while other suitable jurors were still
subject to random drawdown. See id. The trial court
did not act to preserve the impartiality of the jury
but rather to preserve what it deemed to be a fair
cross-section of the community, a practice previously
condemned by the Supreme Court of Kentucky.
Doss, 510 S.W.3d at 836 ("No one would reasonably
argue that a judge could properly strike a qualified
individual juror from the petit jury panel simply to
make room for a different juror of another race or
ethnicity.").
It is true that trial courts are granted wide
latitude in rectifying Batson violations. Batson, 476
U.S. at 99 n.24, 106 S.Ct. at 1725 n.24. However,
when remedying such a violation, a trial court must
always strive to maintain impartiality among the
jury. The Supreme Court suggested two remedies for
Batson violations while considering the preservation
of random impartiality, although it declined to
provide any definite list of solutions. Id. According to
the Supreme Court, "whether it is more appropriate
in a particular case, upon a finding of discrimination
against black jurors, for the trial court to discharge
the venire and select a new jury from a panel not
previously associated with the case . . . or to disallow
the discriminatory challenges and resume selection

30a
with the improperly challenged jurors reinstated on
the venire" depends entirely on the particular case
before the trial court. Id. (citations omitted).
As Ward points out in her brief, Kentucky courts
are not required by CR 47.02 to use alternate jurors.
They may impanel exactly as many jurors as will
serve on the panel. However, the rule explicitly
provides that where there are more members on the
jury than "exceeds the number required by law," all
jurors will be subject to random drawdown. Ward's
comparison between Federal Rule of Civil Procedure
47, which abstains from the practice of seating
alternate jurors, and CR 47.02, which allows for
alternate jurors and explicitly provides for the
procedure by which they are eventually trimmed
from the deciding jury, is simply inapposite. If the
court had not been using alternate jurors,
guaranteeing Juror 4879 a seat on the jury would
have been unquestionably appropriate as one of the
remedies explicitly provided by the Batson court.
In the absence of beginning with an entire new
panel, the trial court had the remedy of simply
placing Juror 4879 back on the jury.7 Once back on
the panel, the juror would have the same
opportunity to serve on the deliberating jury as the
other fourteen empaneled jurors through the
random drawdown process. This is not what
happened. Instead, the trial court crafted an
Ward further contends that Louisville Metro ought to be
penalized for its Batson violation. Louisville Metro
essentially forfeited its peremptory strike when Juror 4879
was placed back on the jury. That, in and of itself, is a
method of penalizing an impermissive use of peremptory
challenges.
7

31a
overbroad remedy that went beyond Batson's
purpose of treating all jurors equally. The trial
court's remedy insulated Juror 4879 from the
drawdown. Its remedy for the Batson violation was
to ensure Juror 4879 was treated differently from
the other panel members by guaranteeing that juror
the right to serve on the deliberating jury without
having to first go through the drawdown process
required of the other panel members.
Had there been no Batson violation, the full
random drawdown might still have completely
stripped the jury of non-white members, a possibility
our Court
has previously
recognized
as
constitutional. Stevens, 489 S.W.3d at 763-64 ("Until
our Supreme Court says otherwise, the law requires
that the pool from which a jury panel is selected
represent a fair cross-section; however, it does not
require that the jury panel itself accurately reflect
the community."). Placing Juror 4879 back on the
jury subject to random drawdown restored Juror
4879 to the exact position he would have been in had
there been no Batson violation. The trial court's
further actions of guaranteeing Juror 4879 a spot on
the final jury acted as proverbial belt and
suspenders to ensure what the court saw as a fair
cross-section of the community, a result that might
not have come to fruition had the court respected the
practice of final drawdown.
By bypassing the random selection process
mandated by CR 47.02 when dealing with alternate
jurors, the trial court exceeded its discretion in
fashioning a remedy for a Batson challenge. Having
determined that the trial court erred, we must next
decide whether Louisville Metro is required to show

32a
that the error actually prejudiced this case. We do
not believe a showing of actual prejudice is required
in this instance. As a matter of practicality, this
would be exceedingly difficult. There is no way to
know whether Juror 4879 would have been excluded
through the drawdown process. Likewise, there is no
way to be certain how his presence affected the jury's
deliberations and ultimate verdict. What is certain
is that the trial court's actions interfered with the
randomness and equality of treatment our rules and
caselaw require in jury selection.
On reflection as to how disparate
procedures for jury selection might affect
our whole system of justice, we have
decided that it is in the interest of justice
that the statutes and rules for jury
selection be closely followed, and that no
substantial
deviation
be
allowed,
regardless of prejudice. The matter of jury
selection is too important a part of our
judicial system to permit variations, from
one court to another, in compliance with
controlling statutes.
Allen v. Commonwealth, 596 S.W.2d 21, 22 (Ky. App.
1979).
Accordingly, we must presume the trial court's
error was prejudicial, vacate the jury's entire
verdict, and remand this case for a new trial on the
counts submitted to the jury for decision. While this
conclusion renders the remaining arguments moot,
we will briefly address the evidentiary issue related
to exclusion of Louisville Metro's statements
regarding its resignation policy because this issue is
likely to arise on retrial.

33a
C. Louisville Metro's Resignation Policy
On cross-appeal, Ward asserts that the trial court
erred in excluding documents, which include
Louisville Metro's resignation policy and its
responses to her unemployment claim with respect
to those policies. She argues that these documents
are permissive as party-opponent statements
demonstrating that Louisville Metro knew that its
resignation policy had not been complied with by
Louisville Metro agents following Ward's separation.
Under KRE8 801A(b)(1), "[a] statement is not
excluded by the hearsay rule, even though the
declarant is available as a witness, if the statement
is offered against a party and is . . . the party's own
statement, in either an individual or a
representative capacity[.]" According to Ward, these
documents function as an admission by Louisville
Metro about the operation of its policies and show
Louisville Metro's knowledge that its rules had been
broken.
Louisville Metro counters, stating that Ward's
argument that these documents constitute an
admission against interest is factually and legally
incorrect because Louisville Metro's policy was
permissive with respect to written notice.
Furthermore, Louisville Metro posits that the policy
does not establish written notice to be the sole
trigger of an employee's resignation. Louisville
Metro adds that in addition to being inadmissible
hearsay, the documents posed significant risk of
confusing the jury and inviting a verdict based on

8

Kentucky Rules of Evidence.

34a
speculation.
We believe the documents are relevant and that
their probative nature outweighs any undue
prejudice. One of the central issues in this case was
whether Ward's verbal resignation was effective or
whether she was terminated. After the meeting,
Ward contends that she was advised by Human
Resources that a verbal resignation alone was not
effective and that she could change her mind by not
completing the process. According to Ward, she
elected not to follow through on her verbal
resignation meaning that she was terminated as
opposed to having voluntarily resigned. We believe
Louisville Metro's policies and its statements related
thereto are relevant to this issue. We believe the jury
is capable of understanding the policies and
Louisville Metro's statements concerning them
without becoming unduly confused. They should be
admitted subject to appropriate objections during
any retrial of this matter.
III. Conclusion
In light of the foregoing, we affirm in part, vacate
the jury's judgment in its entirety, and remand for
further proceedings in accordance with this opinion.
ALL CONCUR.

35a
APPENDIX C
Judgment of the
Jefferson Circuit Court
[Filed July 23, 2018]
NO. 16-CI-000330

JEFFERSON CIRCUIT COURT
DIVISION SIX
JUDGE OLU STEVENS

MARYSUSAN WARD
vs.

PLAINTIFF

ENTRY OF JUDGMENT

LOUISVILLE METRO GOVERNMENT

DEFENDANT

This action came before the Court for a trial by
jury on July 10, 2018 and concluded on July 16, 2018.
APPEARING
The attorneys appearding for the parties are
named as follows:
1. For the Plaintiff: Robyn Smith, Soba Saiyed, and
Kelly Perry; and
2. For the Defendant: J. Denis Ogburn
JURY VERDICT
The jury found for Plaintiff on her claim of
retailiation in violation of KRS Chapter 344, the
Kentucky Civil Rights Act, and awarded damages as
follws:
1. Lost Wages: $30,030.80; and
2. Embarassment, Humiliation, and Mental and
Emotional Distress: $850,000.00.

36a
ENTRY OF JUDGMENT
WHEREBY, the jury having rendered its verdict,
and this Court being otherwise sufficiently advised,
JUDGMENT is entered in favor of the Plaintiff,
MarySusan Ward, against the Defendant, Louisville
Metro Government, in the amount of $880,030.80.
Pursuant to CR 52.02, the parties shall have ten
days following the entry of this Judgment to move
the Court for an amendment hereto, including any
motion for attorney’s fees and costs under KRS
344.450 and JRP 404, or any other motion for
amendment or relief permitted under the Kentucky
Revised Statutes and the Kentucky Rules of Civil
Procedure. If no such motion is made within the time
specified above, this Judgment shall become final
and appealable.
Date: 7/23/18

/s Olu Stevens
HON. OLU STEVENS,
Jefferson Circuit Judge, Div. Six

Tendered by:
/s Robyn Smith
Robyn Smith
Soba Saiyed
Kelly Perry
P. Stewart Abney
Abney Law Office, PLLC
624 West Main Street, Fifth Floor
Louisville, KY 40202

37a
APPENDIX D
KY. R. CIV. P. 47.02
Kentucky Rules of Civil Procedure (CR) Rule 47.02
CR 47.02 Alternate jurors
At any time before either side has exercised a
peremptory challenge or challenges, but not
thereafter, the court may direct the clerk to draw
from the jury box, in addition to the number of jurors
required by law to comprise the jury, one (1) or two
(2) cards bearing numbers identifying prospective
jurors. All jurors so drawn shall be empaneled and
shall hear the case. Should it become necessary for
any reason to excuse a juror, the trial shall continue
unless the number of jurors be reduced below the
number required by law. If the membership of the
jury exceeds the number required by law,
immediately before the jury retires to consider its
verdict the clerk, in open court, shall place in a box
the cards bearing numbers identifying the jurors
empaneled to hear the case and, after thoroughly
mixing them, withdraw from the box at random a
sufficient number of cards (one or two, as the case
may be) to reduce the jury to the number required by
law, whereupon the jurors so selected for elimination
shall be excused.
Credits
HISTORY: Amended eff. 1-1-80; prior amendment
eff. 10-1-71; adopted eff. 7-1-53

38a
Rules Civ. Proc., Rule 47.02, KY ST RCP Rule 47.02
Current with amendments received through
November 1, 2020.

